<html>
<title> - NEXT STEPS TOWARD PERMANENT NUCLEAR WASTE DISPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
           NEXT STEPS TOWARD PERMANENT NUCLEAR WASTE DISPOSAL

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-135


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
57-848                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             ROY BLUNT, Missouri
JANE HARMAN, California              STEVE BUYER, Indiana
TOM ALLEN, Maine                     GEORGE RADANOVICH, California
JAN SCHAKOWSKY, Illinois             JOSEPH R. PITTS, Pennsylvania
HILDA L. SOLIS, California           MARY BONO MACK, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               LEE TERRY, Nebraska
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
JIM MATHESON, Utah                   TIM MURPHY, Pennsylvania
G.K. BUTTERFIELD, North Carolina     MICHAEL C. BURGESS, Texas
CHARLIE MELANCON, Louisiana          MARSHA BLACKBURN, Tennessee
JOHN BARROW, Georgia
DORIS O. MATSUI, California

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
                 Subcommittee on Energy and Air Quality

                    RICK BOUCHER, Virginia, Chairman
G.K. BUTTERFIELD, North Carolina,    FRED UPTON, Michigan
    Vice Chairman                         Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
HENRY A. WAXMAN, California          JOHN SHIMKUS, Illinois
EDWARD J. MARKEY, Massachusetts      JOHN B. SHADEGG, Arizona
ALBERT R. WYNN, Maryland             CHARLES W. ``CHIP'' PICKERING, 
MIKE DOYLE, Pennsylvania                 Mississippi
JANE HARMAN, California              ROY BLUNT, Missouri
TOM ALLEN, Maine                     MARY BONO MACK, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               MIKE ROGERS, Michigan
TAMMY BALDWIN, Wisconsin             SUE WILKINS MYRICK, North Carolina
MIKE ROSS, Arkansas                  JOHN SULLIVAN, Oklahoma
DARLENE HOOLEY, Oregon               MICHAEL C. BURGESS, Texas
ANTHONY D. WEINER, New York          MARSHA BLACKBURN, Tennessee
JIM MATHESON, Utah                   JOE BARTON, Texas (ex officio)
DORIS O. MATSUI, California
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                     Sue D. Sheridan, Chief Counsel
                        John W. Jimison, Counsel
                   Rachel Bleshman, Legislative Clerk
                    David McCarthy, Minority Counsel


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Doris Matsui, a Representative in Congress from the State of 
  California, opening statement..................................     5
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, opening statement........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     8

                               Witnesses

Hon. Shelley Berkley, a Representative in Congress from the State 
  of Nevada......................................................     9
    Prepared statement...........................................    12
Edward F. Sproat, III, Director, Office of Civilian Radioactive 
  Waste Management, Department of Energy.........................    15
    Prepared statement...........................................    18
Michael F. Weber, Director, Office of Nuclear Material Safety and 
  Safeguards, U.S. Nuclear Regulatory Commission.................    30
    Prepared statement...........................................    32
Robert J. Meyers, Principal Deputy Assistant Administrator, 
  Office of Air and Radiation, Environmental Protection Agency...    38
    Prepared statement...........................................    40
B. John Garrick, Chairman, U.S. Nuclear Waste Technical Review 
  Board..........................................................    44
    Prepared statement...........................................    47
Marvin S. Fertel, Executive Vice President & Chief Nuclear 
  Officer, Nuclear Energy Institute..............................    54
    Prepared statement...........................................    56
Anne C. George, Commissioner, Connecticut Department of Public 
  Utility Control; Chair, NARUC Committee on Electricity.........    62
    Prepared statement...........................................    64

                           Submitted Material

Members of United States Senate and House of Representatives, 
  letter of June 5, 2008 to United States Nuclear Regulatory 
  Commission, submitted by Mr. Matheson..........................    90


           NEXT STEPS TOWARD PERMANENT NUCLEAR WASTE DISPOSAL

                              ----------                              


                         TUESDAY, JULY 15, 2008

                  House of Representatives,
            Subcommittee on Energy and Air Quality,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher (chairman) presiding.
    Members present: Representatives Boucher, Gonzalez, 
Matheson, Matsui, Upton, Hall, Whitfield, Shimkus, Shadegg, 
Walden, Burgess, and Blackburn.
    Staff present: John Jimison, Laura Vaught, Chris Treanor, 
Alex Haurek, Rachel Bleshman, David McCarthy, Amanda Mertens-
Campbell, Andrea Spring, and Garrett Golding.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The subcommittee will come to order. Today we 
will receive testimony on the status of the Department of 
Energy's Yucca Mountain nuclear waste repository program, a 
matter of major concern to many, including the electricity 
consumers who are paying their funds into the nuclear waste 
fund. Congratulations should be extended this morning to Mr. 
Sproat, the Director of DOE's Office of Civilian Radioactive 
Waste Management for his success in meeting his promised date 
of June, 2008 for submission to the NRC of the Yucca Mountain 
licensing application. Since it has now been submitted, it is 
appropriate we learn this morning about the overall status of 
the project, and the next steps that we can anticipate.
    While the submission to the NRC of the license application 
achieves an important milestone, the longstanding challenge of 
assuring adequate funding for the project remains of paramount 
concern. While in theory a balance of more than $20 billion 
resides in the nuclear waste fund in practice most of that 
money has been expended for other purposes. Each year the 
nuclear waste program has to compete for annual appropriations 
and actual appropriations have been only a fraction of the 
amount that the rate payers have contributed into the nuclear 
waste fund.
    For example, this year $750 million in rate payer 
contributions will go into that fund, but the Administration is 
only proposing that $494.7 million be spent on nuclear waste 
disposal, so $750 million going into the fund and rate payer 
contributions slightly less than $500 million to be spent on 
nuclear waste disposal and even that amount, approximately $500 
million is divided between the civilian program that the 
nuclear waste fund was designed to finance and the Department 
of Defense's nuclear waste disposal with an even contribution 
in the Administration's proposal between the 2 programs. We 
will be interested in Mr. Sproat's view of how this level of 
expenditure for the civilian program will affect his 
projections for opening the Yucca Mountain repository.
    We are also interested in knowing how the Administration's 
funding request, if reflected in appropriations, will affect 
the NRC schedule for reviewing the license application. By law, 
the NRC has 3 years to review and act on the application with 
the fourth year permissible under certain circumstances. Mr. 
Weber's view whether the NRC will have adequate funding to 
achieve that schedule will be of interest to us. I appreciate 
the attendance of the witnesses this morning and look forward 
to their testimony, and pending the beginning of testimony from 
our witnesses, I am pleased now to recognize other members for 
their opening statements beginning with the gentleman from 
Michigan, Mr. Upton, ranking Republican on this subcommittee.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. This is an important 
hearing on the disposal of spent nuclear fuel. Our hearing 
today will largely focus on the Yucca Mountain repository as a 
solution to meet the government's spent nuclear fuel 
obligations. Storing our supply of spent fuel in its current 
form deep inside Yucca Mountain isn't the only disposal option 
available to us. I look forward certainly to future hearings 
that may focus on other possible solutions to our spent fuel 
disposal needs.
    Properly dealing with the spent nuclear fuel is the key to 
our coming nuclear renaissance. With our power needs growing 
and a desire for clean, zero emission power, we will need 
literally hundreds of new nuclear reactors over the next 50 to 
75 years. Nuclear power is the cleanest, most efficient, most 
reliable source of electricity, and it must be at the forefront 
of our energy supply, but impossible without rationally dealing 
with spent fuel.
    Our current policy toward Yucca Mountain is charting us on 
a perilous course. With the Nation's nuclear reactors in 
operation today, we will reach the statutory space limit for 
Yucca in just a couple of years, and it should be noted that 
the statutory limit of 70,000 tons of spent fuel is 
artificially low. Scientists and other experts say that Yucca 
could hold perhaps twice that amount or more.
    Regardless of Yucca's space limitations, we are long 
overdue to close the nuclear fuel cycle. Through advance 
recycling, we can turn spent fuel into new fuel while vastly 
reducing our disposal needs. There is no reason why we 
shouldn't be treating nuclear power as a renewable resource. 
Nuclear is just as clean as solar or wind, and the fuel is in 
fact recyclable. And unlike solar or wind, nuclear provides 
round-the-clock, reliable baseload power.
    With our current once-through fuel cycle an individual's 
lifetime footprint of spent fuel is about the size of a pop 
can. Using proven recycling technology, we can reduce the 
volume of our high-level waste footprint by about 90 to 95 
percent to that of a half dollar. It is my hope that we can 
take advantage of these technologies, and I certainly intend to 
work on bipartisan legislation with my colleagues to make sure 
that recycling can be part of the nuclear fuel cycle noting 
that Yucca must still have a place in this forward thinking 
strategy.
    To date, over $27 billion has been accumulated in the 
nuclear waste trust fund and about $8 billion has been spent. 
Every year, as the chairman indicated, 750 million more goes 
into the fund from rate payers and another billion dollars 
accumulates in interest. After an allocation of these resources 
one would think that we would have something to show for it, 
but to date we do not.
    Through budgetary sleights of hand and a flawed 
appropriation process that allows interest to trump national 
priorities, this money has not been fully spent toward its 
intended purposes. $750 million goes into the fund every year 
but that money doesn't come out. In fact, not only does the 
waste fund become a black hole in the U.S. Treasury, we are 
accumulating billions in liabilities estimated to reach some $7 
billion by the year 2017. Ward Sproat, joining us today, 
deserves to be commended. He beat his actual deadline a year 
ago by about a month.
    The main problem that we faced with Yucca Mountain is the 
lack of appropriated funds. The waste fund must be taken off-
budget to fix the problem. The appropriators and anti-nuclear 
activists have been playing games with our domestic energy 
security for far too long, and it is the American people who 
are getting stuck with the tab.
    France gets nearly 80 percent of its power, actually more 
than 80 percent of its power, from nuclear. Using American 
technology they recycle their nuclear fuel. They even have 
enough electricity capacity to export it to their neighbors. 
Germany, on the other hand, decided to phase out nuclear power 
and now they are an importer of electricity. They have 
completely lost their energy independence. The U.S. is 
fortunate enough today to be energy independent when it comes 
to electricity needs, but without some policies for spent fuel 
management and new nuclear power coming online, we are headed 
down the road toward importing electricity at higher rates, 
much like we are importing oil. America's working families 
deserve coherent policies to address our energy needs.
    It is imperative that clean, safe nuclear power is at the 
forefront as we seek to solidify our Nation's energy supply and 
foster a new era of energy independence and reduced emissions. 
I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Chairman Boucher, thank you for holding this important 
hearing on the disposal of spent nuclear fuel. Our hearing 
today will largely focus on the Yucca Mountain repository as a 
solution to meet the government's spent nuclear fuel 
obligations. Storing our supply of spent fuel--in its current 
form--deep inside Yucca Mountain, isn't the only disposal 
option available to us. I look forward to future hearings that 
may focus on other possible solutions to our spent fuel 
disposal needs.
    With two nuclear plants literally just miles from my 
doorstep in southwest Michigan, I know firsthand the vital role 
nuclear power plays throughout the nation. I also know about 
our pressing need to deal with the growing quantities of spent 
nuclear fuel. As we await the completion of the Yucca 
repository, steps must be taken to temporarily store spent 
nuclear fuel. State-of-the-art dry cask technology is being 
used by plants across the nation, including the Palisades plant 
in my own backyard, to safely store its spent nuclear fuel on-
site--for the time being. Given the numerous delays to Yucca, 
the Cook plant--also in my district--has begun plans to add dry 
cask storage to their site.
    Properly dealing with spent nuclear fuel is the key to our 
coming nuclear renaissance. With our power needs growing and a 
desire for clean zero-emission power, we'll need hundreds of 
new nuclear reactors over the next 50 years. Nuclear power is 
the cleanest, most efficient, and most reliable source of 
electricity. It must be at the forefront of our energy supply--
impossible without rationally dealing with spent fuel.
    Our current policy towards Yucca Mountain is charting us on 
a perilous course. With the nation's nuclear reactors in 
operation today, we will reach the statutory space limit for 
Yucca in just two years. It should be noted that the statutory 
limit of 70,000 tons of spent fuel is artificially low. 
Scientists and other experts say Yucca could hold twice that 
amount--or more.
    Regardless of Yucca's space limitations, we're long overdue 
to close the nuclear fuel cycle. Through advanced recycling, we 
can turn spent fuel into new fuel, while vastly reducing our 
disposal needs. There is no reason why we shouldn't be treating 
nuclear power as a renewable resource. Nuclear is just as clean 
as solar or wind and the fuel is recyclable. And unlike solar 
or wind, nuclear provides round-the-clock, reliable base load 
power.
    With our current once through fuel cycle, an individual's 
lifetime footprint of spent fuel is about the size of a soda 
pop can. Using proven recycling technology, we'll be able to 
reduce the volume of our high-level waste footprint 95 percent 
to that of a Kennedy half dollar. It is my hope that we can 
take advantage of these technologies and I intend to work on 
legislation with my colleagues on both side of the aisle to 
make recycling part of our nuclear fuel cycle--noting that 
Yucca must still have a place in this forward thinking 
strategy.
    To date, over $27 billion dollars has been accumulated in 
the Nuclear Waste Trust Fund (fees plus interest) and about $8 
billion has been spent. Every year $750 million more goes into 
the fund from ratepayers and another billion accumulates as 
interest. After an allocation of these resources, one would 
think that we have something to show for it. We do NOT.
    Through budgetary slights of hand, and a flawed 
appropriations process that allows NIMBY interest to trump 
national priorities, this money has not been fully spent 
towards its intended purpose. $750 million goes into the fund 
every year, but that money doesn't come out. In fact, not only 
does the waste fund become a black hole in the US treasury, 
we're accumulating billions in liabilities--estimated to reach 
$7 billion by 2017. Ward Sproat--joining us today--deserves to 
be commended. Two years ago, he said he would have the 
application done by June 2008. And despite the hurdles, he's 
met that deadline.
    The main problem we've faced with Yucca Mountain is lack of 
appropriated funds. The waste fund MUST be taken off budget to 
fix this problem. The appropriators and anti-nuclear activists 
have been playing games with our domestic energy security far 
too long and it is the American people who are getting stuck 
with the tab.
    Let's look at a case study from Europe--France gets 80% of 
their power from nuclear. Using American technology, they 
recycle their nuclear fuel. They even have enough electricity 
capacity to export to their neighbors. Germany, on the other 
hand, decided to phase out nuclear power. Now they're an 
importer of electricity. They have completely lost their energy 
independence. The U.S. is fortunate today to be energy 
independent--when it comes to electricity needs. But without 
sound policies for spent fuel management and new nuclear power 
coming online, we're headed down the road towards importing 
electricity at higher rates, much like we're importing oil. 
America's working families deserve coherent policies to address 
our energy needs.
    It is imperative that clean, safe nuclear power is at the 
forefront as we seek to solidify our nation's energy supply and 
foster a new era of energy independence and reduced emissions. 
Not only will our environment be better for it, our national 
security will also be bolstered. Millions of households will be 
powered by zero-emission nuclear power and our nation's economy 
will be powered by nuclear as well. I yield back.
                              ----------                              

    Mr. Boucher. Thank you very much, Mr. Upton. The gentleman 
from Texas, Mr. Gonzalez, is recognized for 3 minutes.
    Mr. Gonzalez. Waive opening.
    Mr. Boucher. The gentleman waives his opening statement and 
will have 3 minutes added to his questioning time for the 
second panel of witnesses this morning. The gentlelady from 
California, Ms. Matsui, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. DORIS MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. I thank you very much 
for calling this hearing today, and for your continued focus on 
these important issues. I am very pleased to be here today and 
will just take a minute so we can continue on to the 
distinguished witnesses. I would like to thank today's 
panelists for joining us to discuss the important subject of 
nuclear waste. I look forward to hearing all of your expert 
opinions. Mr. Chairman, my district has had a long history with 
nuclear power. After years of wasted costs and environmental 
security threats, the people of Sacramento voted to shut down 
Rancho Seco nuclear power plant in 1989. It is now fully 
decommissioned.
    I, as well as my constituents, continue to have a number of 
reservations about nuclear power, but the fact that this energy 
source does not emit greenhouse gas is exciting. We cannot 
simply accept it blindly without thoroughly investigating all 
consequences and outcomes. With that said, I fully realize that 
almost 20 percent of our nation's electricity generation comes 
from nuclear sources. Because of that, we as a nation simply 
must resolve the ever growing problem of nuclear waste. I hope 
the witnesses here today can help this committee with 
suggestions and strategies that we can use going forward.
    We need to confront this issue, and we need to do so in 
order to protect the health, safety, and security of this 
country. Mr. Chairman, I thank you for your leadership and your 
commitment to these issues, and I yield back the balance of my 
time.
    Mr. Boucher. Thank you very much, Ms. Matsui. The gentleman 
from Illinois, Mr. Shimkus, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I too want to thank 
you for this hearing, and the focus on energy supply. I, like 
many of us, are disappointed at the rumors of coalition of 
bipartisan members outside of the Committee working to address 
the supply and not the best place where that should happen, 
which is here, because we have a bipartisan majority that could 
easily move a supply bill that would be accepted on the floor 
of the House. Having said that, we know electricity demand is 
going to continue to increase. We as a country can no longer 
say no to adding supply as part of our energy solutions. Just 
to keep up with the projected energy demand, we are going to 
need 52 new nuclear power plants, 747 new coal plants. That is 
just to meet future demand--2,000 new hydroelectric generators 
and 13,000 new megawatts of renewable power.
    That is why we have been on the floor talking about 
American-made energy. Nuclear power is American-made energy. 
Nuclear power is American jobs. Nuclear power is if we are 
going to go into this debate of climate change, is the only way 
that we are going to get to any type of climate change numbers 
without rapidly increasing the cost. That would be devastating 
to the economy. We had a hearing last week on the carbon 
capture and sequestration bill, and a lot of the challenges to 
that bill, Mr. Chairman, was we had a fund that we were not 
going to allow the government to touch. Well, I think the 
nuclear trust fund which we control and we have collected 
millions of dollars from, and we were not putting that money to 
where it goes into the waste disposal, is a perfect example why 
we shouldn't trust the Federal Government to handle the funds 
in your carbon capture and sequestration bill.
    Another reason we shouldn't trust the government is, and I 
didn't say it last week, was on the whole future gen debate. 
Here the government rolled out a great federal program to 
capture and sequester carbon and a coal emitting plant, and 
when industry and the international community got involved the 
Administration, my Administration, President Bush pulled the 
rug out from under the plan, so this is a perfect example. And 
the nuclear waste fund was used in the hearing last week in the 
debate about, trust us, give us the money, and we will make 
sure it then goes, but the nuclear waste fund is a perfect 
example of how we failed to do that over the years, and we are 
scrambling to just meet the minor demands on trying to get 
Yucca Mountain.
    I will end with this. If we cannot bury high-level nuclear 
waste under a mountain in a desert, we just can't put it 
anywhere in this country, and so that is why we are glad that 
this National Government has already made a decision to move 
forward, and we will not allow people to rob the fund to stop 
that from happening. I yield back.
    Mr. Boucher. Thank you very much, Mr. Shimkus. The 
gentleman from Utah, Mr. Matheson, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Mr. Chairman. As someone who 
recognizes the important role that nuclear power plays in our 
energy mix today and in the carbon constrained future, I 
recognize it will play an increasing role. I do have to voice 
serious concerns about the efficacy of a plan to store spent 
nuclear fuel at Yucca Mountain. This plan has always been 
fought with an abundance of faith and not enough fact. Energy 
utility companies have been promised a national repository for 
nuclear waste for the past 2 decades, and unfortunately the 
U.S. Government has been more than happy to act as though this 
is a reasonable plan to deal with what I believe is a very 
serious problem.
    In my home State of Utah, we have a hard time understanding 
why the transportation risks associated with moving nuclear 
waste to Yucca Mountain have never really been studied given 
that 95 percent of the waste will go through my State if it is 
shipped by rail and 87 percent if we truck this waste. This is 
a huge concern to both me and my constituents. I oppose the 
plan to store nuclear waste at Yucca Mountain, Nevada. First, I 
don't think that because it is a small State in terms of 
population that that should have been the reason why it is 
being stored there, and I hate to say it but I think that has 
been a big factor. I think the politics of this issue have 
trumped science. Second, the waste is currently being stored 
safely on-site with plenty of room for more storage. In fact, 
the total amount of waste produced by the United States since 
1950 would occupy the space of one football field. And, 
finally, as I indicated, the transportation of this nuclear 
waste across the continent in my opinion creates more safety 
problems than leaving it where it is.
    Nuclear waste is currently stored where it is created in 
either dry cask storage or in water storage facilities. My 
opposition to moving nuclear waste does not mean I oppose 
nuclear energy as part of energy mix. As I said at the outset, 
I believe that technological advancements can help solve the 
problems we face with the storage of spent nuclear fuel. I just 
don't think moving the waste to Yucca Mountain really solves 
the problem. When we start to think about a carbon constrained 
future, I think we should be even more concerned about nuclear 
waste storage because even if we were to magically open Yucca 
Mountain today, we wouldn't have enough room for the waste we 
already have.
    Instead of throwing more money at this problem, I think it 
is unbelievable how much money we have thrown at it already. We 
should recognize the concept of some cost and we should move on 
looking at realistic solutions in the near term as well as a 
viable long-term strategy. I have introduced a bipartisan 
interim storage bill along with my colleagues, Ms. Berkley from 
Nevada, Mr. Cannon of Utah, and Mr. Bishop of Utah, that this 
committee should consider. Companion legislation has been 
introduced in the Senate by Senators Reid and Bennett.
    H.R. 4062, the Federal Accountability for Nuclear Waste 
Storage Act, would require the Federal Government to take 
responsibility for possession of storage, maintenance, and 
monitoring of the waste. Utilities would have 6 years to 
transfer spent fuel currently in pools into dry cask in order 
to allow sufficient time for cooling and construction. Mr. 
Chairman, I see my time is about to run out. I would like to 
submit my full written statement for the record, but again I 
would say there are other options we should be looking as a 
committee, and that is why I welcome this hearing taking place, 
and I look forward to hearing from our witnesses.
    Mr. Boucher. Thank you very much, Mr. Matheson. The 
gentleman from Oregon, Mr. Walden, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I appreciate 
your holding this hearing. You do a wonderful job on these 
hearings. It is always interesting to learn about where we are 
in various segments of the energy world. It seems to me that 
the longer we wait to open Yucca Mountain, the more it is going 
to cost rate payers, and the longer we wait, the more risk 
there is dispersed around the country for Americans. I have 
little faith that Yucca Mountain is going to move forward in a 
timely manner, especially as long as there is a fairly active 
and able Nevada delegation working a way to prevent its 
opening, and I guess I respect that. I suppose if I were in 
your shoes, I might share similar views, but for the sake of 
the country it seems to me we need a safe and secure depository 
that can be safeguarded and where America's nuclear waste can 
go, and the sooner the better.
    I noted this morning on WTOP they had, I believe it was the 
Maryland PUC Commissioner or somebody from the Public Utility 
Commission talking about how Maryland is going to run out of 
electricity at some point here and not be able to meet demand 
in the not too distant future. And I think potentially that is 
the problem around the country. And as we look at alternative 
energy sources, and I am a big advocate of those, I recognize 
there are limitations on how much wind or solar you can have, 
and certainly other countries around the world have been able 
to utilize nuclear energy although I think America may actually 
produce more electricity from nuclear power than any other 
country on the planet. So we are actually in the forefront. Now 
we just have to solve this disposal waste issue. I think that 
is essential.
    If we want to move forward on reducing our carbon footprint 
then we have to look to energy production sources that are not 
either hydrocarbons as in coal or gas, and certainly most of 
our peaking plants now are gas fired, and you are going to see 
continuing problems meeting that demand. And so it looks to me 
like in the future not only do we have to replace nuclear power 
plants we have, we have to turn to that energy source to safely 
provide additional non-polluting energy, but we need to get 
this storage issue resolved once and for all. So, Mr. Chairman, 
thank you. I do have to say as a footnote that I wish this 
subcommittee were also taking aggressive action right now to 
address America's lack of energy and cost of energy, not just 
in terms of speculators and gougers but supply.
    And I know that you share some of those concerns as well, 
Mr. Chairman, in terms of adding to America's supply. I think 
the time has come, times have changed, and, frankly, economy is 
up on the rocks, and a lot of it has to do with the lack of 
energy. And when you are paying $5.08 a gallon for diesel in 
Odell, Oregon or $4.39 or whatever it may be at this moment, 
family budgets are getting killed, and this economy is 
suffering mightily. You find it at the food counter. You find 
it at the gas station. And this Congress needs to take real 
serious action about adding to supply and changing the dynamic 
of the world market. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Walden. The gentleman 
from Kentucky, Mr. Whitfield, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Mr. Chairman, thank you very much for 
holding this important hearing. I want to thank our witnesses, 
Ms. Berkley, and those on the second panel. We look forward to 
your testimony. Obviously, energy is one of the key issues 
facing our great country today, and we all recognize with the 
increasing demand for electricity in the future nuclear power 
must play an important role. And it is quite disappointing that 
we still find ourselves in this quagmire relating to Yucca 
Mountain. I guess the legislation to first start studying Yucca 
Mountain was passed in 1982, 26 years ago, and we still do not 
have this issue resolved. It is unfortunate that the Federal 
Government through its general funds has to pay out awards to 
utilities because the government is not in a position to take 
all of this waste, and I think the judgments already exceed 
$400 million, and depending upon when the government is able to 
do it may lessen that figure or increase that figure.
    So this is a timely hearing. It is one that we must move 
forward to with great dispatch. It is one of the most important 
issues facing our country, I believe. And we also know that if 
the NRC does not believe that we are going to be in a position 
to dispose of this waste that they could reach a position where 
they may not license any more nuclear reactors. So it is a 
vitally important issue, and I thank the chairman for hosting, 
and I look forward to the testimony of the witnesses this 
morning.
    Mr. Boucher. Thank you very much, Mr. Whitfield. We turn 
now to our first witness of the morning, and that is the 
Honorable Shelley Berkley, who represents the First District of 
Nevada. Shelley, we are delighted to have you with us today. 
Without objection, your prepared statement will be made part of 
the record, and we will welcome your oral summary.

STATEMENT OF HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Berkley. Thank you very much, Mr. Chairman, Ranking 
Member Upton, and members of the Committee. It is a pleasure 
for me to be here, and thank you for giving me the opportunity 
to testify. While the ranking member spoke of a nuclear 
renaissance, the people of the State of Nevada consider us 
going back to the Dark Ages. Nevada families are overwhelmingly 
opposed to our home State becoming this Nation's nuclear 
garbage dump. Over the past 26 years we have been fighting 
Yucca Mountain, Republicans and Democrats alike, for one simple 
reason. It is not safe.
    Nevadans know a bad bet when we see one. Opposition to 
Yucca Mountain at home remains as strong as ever, with polls 
showing more than 75 percent of Nevada residents saying they 
want to continue fighting this reckless and dangerous proposal. 
That is because we recognize the danger of burying radioactive 
toxic nuclear waste 90 minutes from the Las Vegas Valley, 
Nevada's economic engine, home to more than 2 million residents 
and a destination that draws more than 40 million visitors from 
around the globe annually. Today you will no doubt hear much 
about the progress made on Yucca Mountain, including the 
submission of a license application to the NRC.
    I would also ask you to keep in mind the project's bloated 
price tag, history of chronic delays, failed quality assurance 
program, and a long list of scientific and technical 
shortcomings that continue to plague Yucca Mountain. This 
includes e-mails sent by workers on the project containing 
statements such as this. This is a worker on the Yucca Mountain 
project: ``In the end I keep track of 2 set of files, the ones 
that will keep QA happy and the ones that are actually used,'' 
and ``if they need more proof I will be happy to make up more 
stuff.'' There are 1,100 pages just like that. If you want to 
get chilled one day, read them.
    Is there any wonder Nevadans have an utter lack of 
confidence when the words ``sound science'' and ``Yucca 
Mountain'' are used in the same sentence. Allow me to list just 
a few of the unresolved issues. No radiation standard. A 
federal court struck down EPA's original radiation standard of 
10,000 years for Yucca Mountain. Current law requires that the 
standard covers at least 300,000 years, the period of peak 
danger. Clean energy, I mean nuclear waste is radioactive. What 
is more dirty than that? The issue is key. This issue is key to 
determining Yucca Mountain's performance, yet DOE filed its 
application without finalization of this important safeguard. 
Earthquakes and volcanoes, violent earthquakes and volcanoes 
have rocked Yucca Mountain in the past. There is no reason to 
think these threats will not occur again, and I know Mr. 
Shimkus speaks when he sees the desert southwest because he 
lives in the east, he sees a vast wasteland but the desert 
southwest has a very dynamic ecosystem that we may very well 
destroy. No canisters currently exist that are capable of 
storing waste. Should this magic canister appear plans call for 
billions of dollars of so-called drip shields to be added long 
after the waste has gone into Yucca Mountain.
    The State of Nevada has argued with good reason that 
installing these drip shields a century from now probably won't 
be possible because the DOE's plan which relies on robots that 
have yet to be invented. The Secretary of Energy actually had a 
press conference where he talked about an army of robots--this 
is like I, Robot in real life--going down into Yucca Mountain a 
hundred years from now because it is too radioactive and hot 
for human beings that these robots will somehow magically put 
the drip shields over the canisters that don't exist either. 
Transportation dangers, 50 million Americans will be at risk 
from thousands of nuclear waste shipments barreling down 
America's roads and railways, each a prime target for 
terrorists seeking to do harm hunting for materials to make a 
dirty bomb, and we know statistically when thousands of 
shipments involving high-level nuclear waste are barreling down 
our roads accidents will occur leaving families and our 
environment vulnerable to decades of this threat and exposing 
communities to millions of dollars in potential clean-up costs.
    And who pays for that? You and I, ladies and gentlemen, and 
millions of taxpayers in this country. Yucca Mountain is 
decades behind schedule. Shipments were supposed to begin 
arriving in Nevada in 1998. Today that date has slipped to 2020 
or beyond and it will be 2050 or later before all current waste 
is shipped. The price tag for Yucca Mountain has ballooned and 
the cost is growing. I would note that it has also been nearly 
2 years since DOE promised this committee it would provide an 
updated life cycle cost analysis for Yucca Mountain. This 
revised estimate was originally to be delivered in 2006. 
Promises were made not only to members of this committee but 
also to the GAO and my office.
    I would ask the DOE to explain why it has taken nearly 2 
years to update this important cost analysis and why it fails 
to honor its pledge that this task would have been completed 
long ago. Up until this point, we have been told to expect 
figures approaching $80 billion, and I am anxious to learn what 
the new amount is going to be, not that 80 billion does not 
already qualify this project as a prime example of grade A 
radioactive pork. And let me suggest another thing to you. We 
are in the middle of a drought in the desert southwest. We have 
no water, and this project will take massive amounts of water. 
Where in heaven's name do we plan to get it from?
    Waste does not have to be moved. Experts agree on one 
thing. Waste can safety remain on sight for the next 100 years 
in dry cask storage. This ready-made option costs a fraction of 
Yucca Mountain's price tags and avoids the transportation 
risks. Remember, on-site storage is already being done and the 
fact remains that waste is going to stay at existing and former 
plant sites for at least another decade or more even under the 
rosiest of scenarios. This brings me, Mr. Chairman, to my key 
point. Those looking at alternatives to current nuclear waste 
policy should not rush to move waste to Yucca Mountain given 
the evolution and thinking that is now taking place.
    This includes interest in the construction of a U.S. 
reprocessing plant that would treat waste before it is sent to 
a repository. Such a scheme raises the question of how many 
times we are planning to ship high-level nuclear waste. Will it 
go to Nevada first only to be moved and sent to the 
reprocessing plant and then reshipped to my home State, and 
what about interim storage? Do we move it from the plants to 
regional sites to reprocessing and then back to Nevada? Leaving 
waste on-site while options are debated leave open future 
alternatives to burying this garbage in the Nevada desert. And 
what about the myth that we are consolidating the waste in one 
place? Here is what the nuclear industry does not talk about. 
Yucca Mountain will not eliminate nuclear waste at plants where 
power is being generated. This is a patently false claim used 
to justify a flawed policy.
    Simply put, as long as a nuclear power plant is operating 
nuclear waste will remain on-site. We are not creating one 
repository to hold all the waste for all time. We are just 
creating one more place where toxic waste will be stored.
    Mr. Boucher. If you could wrap up in just a short period 
that would be helpful to us.
    Ms. Berkley. Yes, I would be delighted to do this.
    Mr. Boucher. Thank you.
    Ms. Berkley. Let me mention one other very important issue 
before I relinquish my time. Nevada's congressional 
delegation--and this is all the members, Republicans and 
Democrats alike--is challenging 100 million no-bid sweetheart 
contract for work on Yucca Mountain to a law firm with a 
blatant conflict of interest. Twice we have asked as a complete 
delegation for the Secretary of Energy to recuse the firm of 
Morgan Lewis, which is both suing the taxpayers on behalf of 
the nuclear industry, while also representing the Energy 
Department on taxpayers' dollars. We have yet to receive an 
answer. This acknowledged conflict of interest has also raised 
red flags at the Justice Department, which has questioned the 
awarding of this no-bid contract, given the potential impact on 
cases involving huge liability claims.
    The families that I represent, all the families of Nevada, 
deserve fair treatment in the Yucca Mountain licensing process, 
and the taxpayers of America deserve to have their financial 
interests protected. Morgan Lewis should be replaced and this 
$100 million contract put forward again with an open and fair 
bidding process. And, Mr. Chairman, anything you can do to help 
the State of Nevada with that issue, we would be very, very 
grateful.
    [The prepared statement of Ms. Berkley follows:]

                   Statement of Hon. Shelley Berkley

    Mr. Chairman, Members of the Subcommittee. Thank you for 
the opportunity to testify today and please allow me to get 
right to the point.
    Nevada families are overwhelmingly opposed to our home 
state becoming this nation's nuclear garbage dump. Over the 
past 25 years, we have been fighting Yucca Mountain for one 
simple reason: it's not safe.
    Nevadans know a bad bet when we see one. I can report that 
opposition to Yucca Mountain at home remains as strong as ever, 
with polls showing more than 75% of Nevada residents saying 
they want to continue fighting this reckless proposal.
    That is because we recognize the danger of burying toxic 
nuclear waste 90 minutes from the Las Vegas Valley--Nevada's 
economic engine, home to more than two million residents and a 
destination that draws 40 million visitors from around the 
globe annually.
    Today you will no doubt hear much about the ``progress'' 
made on Yucca Mountain, including the submission of a license 
application to the NRC.
    However, I would ask you to also keep in mind the project's 
bloated price tag, history of chronic delays, failed quality 
assurance program, and the long list of scientific and 
technological shortcomings that continue to plague Yucca 
Mountain.
    This includes e-mails sent by workers on the project 
containing statements such as:

    ``In the end I keep track of 2 sets of files, the ones that 
will keep QA happy and the ones that were actually used,'' and 
``If they need more proof I will be happy to make up more 
stuff.''

    No wonder Nevadans have an utter lack of confidence when 
the words ``sound science'' and Yucca Mountain are used in the 
same sentence.
    Allow me to list just a few more of the unresolved issues 
surrounding the proposed dump.
    No radiation standard: A federal court struck down EPA's 
original radiation standard for Yucca Mountain. Current law 
requires that the standard covers at least 300,000 years--the 
period of peak danger.
    This issue is a key basis for determining Yucca Mountain's 
performance. Yet DOE filed its license application without 
finalization of this important safeguard.
    Earthquakes and Volcanoes. Violent earthquakes and 
volcanoes have rocked Yucca Mountain in the past. There is no 
reason to think these threats cannot strike again.
    No canister currently exists that is capable of storing 
waste. Should this magic canister appear, plans call for 
billions of dollars in so-called drip shields to be added long 
after waste has gone into Yucca Mountain.
    The State of Nevada has argued, with good reason, that 
installing these drip shields a century from now probably won't 
be possible because DOE's plan relies on robots that have yet 
to be invented.
    Transportation Dangers: 50 million Americans will be at 
risk from thousands of nuclear waste shipments barreling down 
America's roads and railways. Each a prime target for 
terrorists seeking to do harm or hunting for the materials to 
make a dirty bomb.
    And we know accidents involving high-level nuclear waste 
will occur, leaving families and our environment vulnerable to 
decades of this threat and exposing communities to millions of 
dollars in potential clean-up costs.
    Yucca Mountain is decades behind schedule: Waste shipments 
were supposed to begin arriving in Nevada in 1998. Today, that 
date has slipped to 2020 or beyond and it will be 2050 or later 
before all current waste is shipped.
    The price tag for Yucca Mountain has ballooned and with 
$4.00 gas, the cost is growing. I would note that it has also 
been nearly two years since DOE promised this Committee it 
would provide an updated lifecycle cost analysis for Yucca 
Mountain.
    This revised estimate was originally to be delivered in 
2006. Promises were made, not only to members of this 
Committee, but also to the GAO and my office.
    I would ask DOE to explain why it has taken nearly two 
years to update this important cost analysis and why it failed 
to honor its pledge that this task would be completed long ago.
    Up until this point, we have been told to expect a figure 
approaching the $80 billion mark and I am anxious to learn the 
new amount.
    Not that $80 billion does not already qualify this project 
as a prime example of Grade radioactive pork.
    Waste does not have to be moved. Experts agree on one 
thing. Waste can safely remain on-site for the next 100 years 
in dry cask storage. This ready-made option costs a fraction of 
Yucca Mountain's price tag and avoids transportation risks.
    Remember, on-site storage is already being done and the 
fact remains that waste is going to stay at existing and former 
plant sites for at least another decade or more, even under the 
rosiest of scenarios.
    This brings me to a key point: Those looking at 
alternatives to current nuclear waste policy should not rush to 
move waste to Yucca Mountain given the evolution in thinking 
that is now taking place.
    This includes interest in the construction of a U.S. 
reprocessing plant--which I oppose--that would treat waste 
before it is sent to a repository.
    Such a scheme raises the question of how many times we are 
planning to ship high-level nuclear waste.
    Will it go to Nevada first, only to be removed and sent to 
a reprocessing plant, then re-shipped to my home state?
    And what about interim storage? Do we move it from the 
plants to regional sites to reprocessing and then to Nevada?
    Leaving waste on-site while options are debated leaves open 
future alternatives to burying this garbage in the Nevada 
desert.
    But what about consolidating the waste in one place?
    Here is what the nuclear industry does not want you to 
know: Yucca Mountain will NOT eliminate nuclear waste at plants 
where power is being generated.
    This is a patently false claim used to justify a flawed 
policy. Simply put: as long as a nuclear power plant is 
operating, some amount of nuclear waste will remain. We are not 
creating one repository to hold all waste for all time; we are 
just creating one more place where toxic nuclear waste will be 
stored.
    Under current law, Yucca Mountain is already full. No new 
waste from even a single new nuclear power plant can be sent to 
Nevada without lifting the cap now in place. This remains a key 
unanswered question in light of calls for dozens of new nuclear 
power plants to be built in coming years.
    This fact also highlights why nuclear power can never be 
called a clean source of energy when the waste created by these 
plants remains a threat for hundreds of thousands of years. Our 
nation's energy future should be built on solar and other forms 
of green energy that do not create the type of deadly 
radioactive by-products set to be dumped at Yucca Mountain.
    Finally, I would note that Nevada's Congressional 
delegation and the State are challenging a $100 million no-bid 
sweetheart contract for work on Yucca Mountain to a law firm 
with a blatant conflict of interest.
    Twice we have asked as a delegation for the Secretary of 
Energy to recuse the firm of Morgan Lewis, which is both suing 
the taxpayers on behalf of the nuclear industry, while also 
representing the Energy Department on the taxpayers' dollar.
    We have yet to receive an answer.
    This acknowledged conflict of interest has also raised red 
flags at the Justice Department which has questioned the 
awarding of this no-bid contract given the potential impact on 
cases involving huge liability claims.
    The families of Nevada deserve fair treatment in the Yucca 
Mountain licensing process and the taxpayers of America deserve 
to have their financial interests protected. Morgan Lewis 
should be replaced and this $100 million contract put forward 
again with an open and fair bidding process.
    Thank you and I look forward to answering any questions.

                                Summary

    Nevada families overwhelmingly oppose Yucca Mountain. One 
simple reason: it's not safe.
    Consistent 25-year opposition to Yucca Mountain remains as 
strong as ever. Polls show more than 75% of residents want to 
continue fighting proposal.
    Nevadans recognize dangers of burying nuclear waste 90 
minutes from Las Vegas--Nevada's economic engine, home to more 
than two million residents and a destination that draws 40 
million visitors annually.
    Must keep in mind Yucca Mountain's bloated price tag, 
history of chronic delays, failed quality assurance program, 
and the long list of scientific and technological shortcomings 
that plague the project. Worker e-mails uncovered with 
statements such as: ``In the end I keep track of 2 sets of 
files, the ones that will keep QA happy and the ones that were 
actually used,'' and ``If they need more proof I will be happy 
to make up more stuff.''
    Unresolved issues surrounding the proposed dump: No 
radiation standard. This issue is a key basis for determining 
Yucca Mountain's performance, yet DOE filed its license 
application without finalization of this important safeguard.
    Violent earthquakes and volcanoes have rocked Yucca 
Mountain in the past and there is no reason to think these 
threats cannot strike again.
    No canister currently exists that is capable of storing 
waste. Plans also call for billions of dollars in drip shields 
to be added by robots that have yet to be invented.
    Transportation Dangers: 50 million Americans will be at 
risk from thousands of nuclear waste shipments. Each a prime 
target for terrorists. Accidents will leave families and 
communities vulnerable to threats and millions of dollars in 
potential clean-up costs.
    Yucca Mountain is decades behind schedule: Waste shipments 
were supposed to begin arriving in Nevada in 1998. Today, that 
date has slipped to 2020 or beyond and it will be 2050 or later 
before all current waste is shipped.
    Price tag for Yucca Mountain has ballooned. Congress has 
been told to expect a figure near $80 billion mark. Project 
already qualifies as a prime example of Grade ``A'' radioactive 
pork.
    Waste does not have to be moved. Waste can safely remain 
on-site for the next 100 years in dry cask storage. Costs a 
fraction of Yucca Mountain's price tag and avoids 
transportation risks. Interest in U.S. reprocessing plant 
raises question of how many times waste would be moved. Leaving 
waste on-site while options are debated leaves open future 
alternatives to burying in Nevada.
    Yucca Mountain will NOT eliminate nuclear waste at plants 
where power is being generated. As long as a nuclear power 
plant is operating, nuclear waste will remain. We are not 
creating one repository to hold all waste for all time; we are 
just creating one more place where toxic nuclear waste will be 
stored.
    Yucca Mountain is already full. No new waste from even a 
single new nuclear power plant can be sent to Nevada without 
lifting the cap now in place. Key point in light of calls for 
dozens of new nuclear power plants to be built in coming years. 
Shows why nuclear power not a clean source of electricity.
    Nevada's Congressional delegation and the State are 
challenging a $100 million no-bid sweetheart contract for work 
on Yucca Mountain to a law firm with a blatant conflict of 
interest.
    Nevada delegation has asked the Secretary of Energy to 
recuse the firm of Morgan Lewis. Conflict of interest has also 
raised red flags at Justice Department which has questioned no-
bid contract given potential impact on cases involving huge 
liability claims. Morgan Lewis must be replaced and the $100 
million contract put forward again with open and fair bidding 
process.
                              ----------                              

    Mr. Boucher. Thank you very much, Ms. Berkley.
    Ms. Berkley. You are very welcome. Thank you for your time.
    Mr. Boucher. We appreciate your testimony here this 
morning. Thank you. We will turn now to our second panel of 
witnesses for the morning. Mr. Edward Sproat is the Director of 
the Office of Civilian Radioactive Waste for the Department of 
Energy. Mr. Michael Weber is Director of the Office of Nuclear 
Material Safety and Safeguards with the Nuclear Regulatory 
Commission. Mr. Robert Meyers, the Principal Deputy Assistant 
Administrator with the Office of Air and Radiation at the 
Environmental Protection Agency. Dr. John Garrick is the 
Chairman of the Nuclear Waste Technical Review Board. Mr. 
Marvin Fertel is the Executive Vice President and Chief Nuclear 
Officer at the Nuclear Energy Institute. And Ms. Anne George is 
a Commissioner with the Connecticut Department of Public 
Utility Control and Chair of the National Association of 
Regulatory Utility Commissioners Committee on Electricity. We 
welcome each of our witnesses this morning, and thank you for 
taking time to share your views with us on this matter of 
concern to many. Your prepared written statements will be made 
a part of our record, and we would welcome you oral summaries, 
and ask that your oral summaries be kept to approximately 5 
minutes. And, Mr. Sproat, we have already commended you for 
your early filing of the application for a license with the 
NRC, and we will be happy to hear your testimony this morning 
regarding that and other matters relating to the status of the 
Yucca Mountain project. We welcome you and we will be glad to 
hear from you at this time.

    STATEMENT OF EDWARD F. SPROAT, III, DIRECTOR, OFFICE OF 
  CIVILIAN RADIOACTIVE WASTE MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Sproat. Good morning, Mr. Chairman, and Ranking Member 
Upton and members of the committee. Thank you very much for 
inviting me to address the Committee this morning. I would like 
to just talk about briefly the Department's accomplishments 
over the past 2 years since my last appearance before this 
committee in July of 2006, and I would like to talk briefly 
about the challenges the Yucca Mountain program faces moving 
forward. In the hearing in July of 2006 when I was here, I gave 
you a number of intermediate milestones that need to be 
accomplished before we would be able to submit a license 
application to the Nuclear Regulatory Commission. I also 
indicated that we would submit that license application by 
Monday, June 30, 2008, and I am very happy to acknowledge the 
fact that we met or beat all the intermediate milestones except 
the one that we missed by 2 weeks, and we submitted the 
application to the NRC on June 3 of this year.
    I am very pleased to say we accomplished those milestones 
and submitted that license application despite the fact that 
over the past 2 fiscal years we received $200 million less in 
appropriations than what the President had asked for in FY 2007 
and 2008. And we were able to accomplish these significant 
milestones with significantly less dollars because of 2 things. 
One is that we made significant improvements in how this 
program is being managed in terms of its processes. We 
strengthened the management team. But the second key reason is 
because we have a great team that we have pulled together, both 
federal employees and contractors, who are very focused on 
making these milestones happen, and I believe we have turned 
the corner on the Yucca Mountain program in terms of having a 
top notch management team and contractor team working together 
to make this program move forward.
    This team that is going to be in place after I leave is 
very well positioned to be ready to begin construction on the 
repository 3 to 4 years from now if the NRC gives us a 
construction authorization, which I believe that they will 
based on our high quality license application. Regarding new 
nuclear plants, which was referred to in a few of the opening 
statements, we have been working with the Department of Justice 
to develop an amendment to the standard contract so that those 
companies interested in building new nuclear plants could sign 
a contract with the Department of Energy to allow them to get a 
license for those new nuclear plants. Suffice it to say we 
would not sign the existing standard contract given that it 
requires us to begin accepting fuel in 1998, but we have 
reached agreement with DOJ, and we have, in fact, started 
discussions with several utilities who are interested in 
building new nuclear power plants. I would be glad to talk 
about that amendment if the committee so desires.
    We also have completed 4 reports which are in the final 
stage of review, which I anticipate us issuing here in the next 
several weeks. That is an updated Total System Life Cycle Cost 
estimate, the Fee Adequacy Assessment for the nuclear waste 
fund, a report on Interim Storage as requested by the House 
Appropriations Committee early this year, and finally the 
report on the need for a second repository as required by the 
Nuclear Waste Policy Act, which requires us to submit a report 
to Congress on that subject by January 1, 2010. All 4 of those 
reports are to be released imminently. Let me just switch 
quickly to the key issues going forward for the program. Number 
1 is funding, and I know this committee is very well aware of 
this issue. I heard it in several of the opening statements. 
Remember that we could be ready to proceed with construction of 
the repository in 3 to 4 years from now if we receive a 
construction authorization from the Nuclear Regulatory 
Commission.
    This program has been funded historically at levels of 
between $350 million to $500 million a year. That will not be 
sufficient to build and operate the repository, the Nevada rail 
line, and operate this repository. Based on our revised cost 
estimates, based on the design that we have submitted in the 
license application, and the cost estimates based on that 
design, we are looking at a budget authority requirement of 
between $1.2 to $1.9 billion a year for the construction period 
and into the operating period for the repository, so you can 
see there is quite a gap between the $350 million to $500 
million that the program has received in the past versus what 
it is going to need to actually be constructed and operated.
    The nuclear waste fund has about $21 billion in it right 
now. It receives $750 million a year in fees from the utility 
industry, and interest is accumulating at about $900 million a 
year, but this committee is well aware of the flaws in the 
budgetary framework for that fund, and I am sure we will be 
talking about that later in the hearing. We have submitted 
legislation in the last 2 Congresses to try and fix this issue. 
Unfortunately, that legislation has gone nowhere, but quite 
frankly I believe that now that the license application has 
been submitted there will be renewed interest in both houses to 
see if this issue can be addressed. This is the key issue for 
moving Yucca Mountain forward.
    We have talked also briefly about the liability of the 
taxpayer associated with the government's non-performance to 
the standard contracts. The Nuclear Waste Policy Act does not 
allow us to move spent nuclear fuel until the repository is in 
operation, and as a result if we don't open the repository 
until 2020, which is now our best achievable date, we are 
estimating taxpayer liability to be about $11 billion at that 
stage of the game. Clearly, the least cost option for the 
taxpayer and for the ratepayer is to move forward and get Yucca 
open as quickly as we can. Other key issues that we are facing 
just so the committee is aware, and I will be glad to talk 
about these if requested, land withdrawal. We do need to 
legislatively withdraw the land around the repository in order 
for the NRC to give us a construction authorization. That does 
require legislation. And water rights is another key issue and 
also the 70,000 metric ton administrative limit on the capacity 
of Yucca Mountain. All of those have been addressed in the 
legislation that we submitted to Congress in the last 2 
congressional sessions.
    To summarize, I believe we have made substantial progress 
with Yucca Mountain over the last 2 years, and we have 
submitted a very high quality license application to the NRC. I 
have every reason to believe and expect that we will get an 
authorization to begin construction for Yucca in the next 3 to 
4 years, but we will need the help of Congress to restore 
access to the nuclear waste fund and the fees as was the 
original intent of Congress when the nuclear waste fund was 
established in the Nuclear Waste Policy Act.
    I believe I have an excellent federal senior management 
team that will take this program forward after I leave, and I 
will be very happy to answer any questions the committee may 
have when it is my turn.
    [The prepared statement of Mr. Sproat follows:]


    [GRAPHIC] [TIFF OMITTED] 57848.001
    
    [GRAPHIC] [TIFF OMITTED] 57848.002
    
    [GRAPHIC] [TIFF OMITTED] 57848.003
    
    [GRAPHIC] [TIFF OMITTED] 57848.004
    
    [GRAPHIC] [TIFF OMITTED] 57848.005
    
    [GRAPHIC] [TIFF OMITTED] 57848.006
    
    [GRAPHIC] [TIFF OMITTED] 57848.007
    
    [GRAPHIC] [TIFF OMITTED] 57848.008
    
    [GRAPHIC] [TIFF OMITTED] 57848.009
    
    [GRAPHIC] [TIFF OMITTED] 57848.010
    
    [GRAPHIC] [TIFF OMITTED] 57848.011
    
    [GRAPHIC] [TIFF OMITTED] 57848.012
    
    Mr. Boucher. Thank you very much, Mr. Sproat. Mr. Weber.

  STATEMENT OF MICHAEL F. WEBER, DIRECTOR, OFFICE OF NUCLEAR 
    MATERIAL SAFETY AND SAFEGUARDS, U.S. NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Weber. Good morning. Mr. Chairman, members of the 
committee, it is my honor to be before you today to discuss the 
process that the NRC is using to review the license application 
submitted by the U.S. Department of Energy for a high-level 
waste repository at Yucca Mountain in Nevada. The NRC takes no 
position at this time on whether the geologic repository can be 
built or operated safely at Yucca Mountain. That remains to be 
determined after our review of the license application. I want 
to assure you, however, Mr. Chairman and members of the 
committee, that we will base our decision on whether to 
authorize construction on NRC's comprehensive and independent 
safety review and the results of a full and impartial 
adjudicatory hearing.
    The NRC developed and maintains its high-level radioactive 
waste regulatory program, consistent with our responsibilities 
under the Nuclear Waste Policy Act and the Energy Policy Act of 
1992. The Congress assigned the NRC the regulatory authority to 
determine whether to authorize construction of the geologic 
repository at Yucca Mountain and evaluating DOE's license 
application. NRC received that application, as Mr. Sproat said, 
on June 3, 2008. Before NRC can begin its full safety review, 
however, we must first decide whether to accept that 
application for review. NRC's review process is depicted on the 
screen. NRC will first decide whether the application contains 
sufficient information for the staff to commence a detailed 
technical review. We must also decide whether to adopt DOE's 
environmental impact statement. If NRC staff accepts the 
application for review, we would docket the application, begin 
our formal safety review, and publish a notice of docketing in 
the Federal Register. We expect to make this decision by early 
September. At that time, NRC staff would also determine whether 
to adopt the EIS, adopt the EIS in part and require further 
supplementation, or not adopt the EIS without further 
supplementation.
    A Notice of Hearing would also offer interested persons the 
opportunity to file petitions to intervene and to request a 
hearing. NRC's evaluation of DOE's license application is 
proceeding. The NRC staff is prepared to conduct a detailed 
independent technical review of that application. Supporting 
NRC in the effort is the NRC's Center for Nuclear Waste 
Regulatory Analyses associated with the Southwest Research 
Institute in San Antonio, Texas. The NRC staff would examine 
the license application to determine if the Department of 
Energy has shown the proposed repository would protect people 
and the environment in compliance with NRC's requirements. The 
NRC would provide the opportunity for public hearings on DOE's 
application that would follow well-established rules and 
procedures. NRC would decide whether to authorize construction 
of the proposed repository by objectively reviewing the 
information submitted, by making decisions on contested 
matters, based on the record before it, and by maintaining an 
open and public adjudicatory process.
    As the applicant, the Department bears the burden of 
proving its safety and licensing case before the Atomic Safety 
and Licensing Board during any hearing. The Board serves as the 
independent, adjudicatory arm of the NRC. Parties may seek 
review of the Board's decisions to the Commission. Under the 
Nuclear Waste Policy Act, NRC is also directed to establish 
safety and license regulations consistent with the standards 
for Yucca Mountain set by the Environmental Protection Agency. 
NRC stands ready to conform our regulations to the final EPA 
standards when they are published. Without these final 
additional EPA standards, the NRC staff believes that it could 
begin to review portions of the DOE license application if we 
docket that application.
    We could not, however, reach any decision whether to deny 
or grant the construction authorization of the repository 
without these standards in place. In summary, the Department 
bears the responsibility for demonstrating that regulatory and 
licensing requirements are met to protect public health and 
safety and the environment. The NRC must independently assess 
this demonstration before we can decide whether to authorize 
construction of the repository. NRC's ability to reach this 
important decision in a timely manner depends on 3 things: 
EPA's issuance of final environmental standards to which NRC 
can conform our regulations; timely and high quality responses 
to any requests for additional information that NRC provides 
the Department of Energy; and sufficient resources from the 
Congress for NRC to conduct its technical review and carry out 
its public hearing process.
    I can assure you that NRC is committed to conducting a full 
and impartial review of the Department's application. Thank you 
for the opportunity to discuss, and I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Weber follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.013
    
    [GRAPHIC] [TIFF OMITTED] 57848.014
    
    [GRAPHIC] [TIFF OMITTED] 57848.015
    
    [GRAPHIC] [TIFF OMITTED] 57848.016
    
    [GRAPHIC] [TIFF OMITTED] 57848.017
    
    [GRAPHIC] [TIFF OMITTED] 57848.018
    
    Mr. Boucher. Thank you very much, Mr. Weber. Mr. Meyers.

   STATEMENT OF ROBERT J. MEYERS, PRINCIPAL DEPUTY ASSISTANT 
   ADMINISTRATOR, OFFICE OF AIR AND RADIATION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Meyers. Thank you, Mr. Chairman and members of the 
subcommittee. I would like to begin by briefly describing EPA's 
responsibilities for establishing standards for Yucca Mountain 
and why we have proposed revised standards. The Nuclear Waste 
Policy Act of 1982 initially prescribed the roles and 
responsibilities of federal agencies in the development of 
disposal facilities for spent nuclear fuel and high-level 
waste. EPA was identified as the agency responsible for 
establishing standards to protect the general environment for 
such facilities. In the Energy Policy Act of 1992, Congress 
delineated the EPA's roles and responsibilities specific to the 
Federal Government's establishment of the potential repository 
at Yucca Mountain.
    Under that law, EPA's role is to promulgate standards for 
the Yucca Mountain high-level waste facility in order to 
protect public health and safety. Congress specified that EPA 
is to develop these standards specifically for the Yucca 
Mountain site and as the only such standards applicable to the 
site. The standards are to be incorporated into the NRC 
licensing requirements for Yucca Mountain, and the facility 
would open only if, as mentioned previously, the NRC determines 
that DOE complied with the NRC regulations. In establishing 
EPA's role, Congress also stated that the EPA safety standards 
are to be based upon and consistent with the findings and 
recommendations of the National Academy of Sciences.
    EPA established its Yucca Mountain standards in June 2001. 
As required by the Energy Policy Act, these standards addressed 
releases of radioactive material during storage at the site and 
after final disposal. The storage standard set a dose limit of 
15 millirem per year for the public outside the Yucca Mountain 
site. The disposal standards consisted of 3 components, an 
individual dose standard, a standard evaluating the impacts of 
human intrusion into the repository, and a groundwater 
protection standard. The individual-protection and human-
intrusion standards set of limit of 15 millirem per year to a 
reasonably maximally exposed individual, or RMEI, which would 
be among the most highly exposed members of the public.
    The groundwater protection standard was consistent with 
EPA's drinking water standards. The disposal standards were to 
apply for a period of 10,000 years after the facility is 
closed. Those assessments were to continue beyond 10,000 years 
and be placed in DOE's Environmental Impact Statement, but were 
not subject to a compliance standard. The 10,000 year period 
for compliance assessment was consistent with EPA's generally 
applicable standards developed under the Nuclear Waste Policy 
Act. It also reflected international guidance regarding the 
level of confidence that can be placed in numerical projections 
over very long periods of time.
    As the Committee may be well aware, in July, 2004, the 
Court of Appeals for the District of Columbia court circuit 
found in favor of the Agency on all counts except one, the 
10,000 year regulatory timeframe. The court that the timeframe 
of EPA's standards was not consistent with the National Academy 
of Sciences' recommendations. EPA proposed a revised rule to 
address the Appeals Court decision, and the proposed rule would 
limit radiation doses for Yucca Mountain for up to 1 million 
years after it closes. Within that regulatory timeframe, we 
propose 2 dose standards that will apply based on number of 
years from the time the facility is closed. For the first 
10,000 years the proposal retained the 2001 final rules dose 
limit of 15 millirem per year, and this is the level of 
protection at the most stringent radiation regulations in the 
U.S. today. From 10,000 to 1 million years, we proposed a dose 
limit of 350 millirem per year.
    In the time since the closure of the public comment period, 
we have considered and continue to consider the more than 2,000 
comments we received on the proposed rule. A document putting 
forth our responses to all comments will be published along 
with the final rule. Since the draft final rule was submitted 
for OMB review, we have also engaged in productive discussions 
internally and with other federal agencies about the important 
and complex issues that have been raised. We look forward to 
concluding our analysis of the public comments and issuing the 
final rule.
    Thank you again for the opportunity to appear before the 
subcommittee and present this update on EPA's Yucca Mountain 
standards. This concludes my prepared statement, and I will be 
happy to address any questions.
    [The prepared statement of Mr. Meyers follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.019
    
    [GRAPHIC] [TIFF OMITTED] 57848.020
    
    [GRAPHIC] [TIFF OMITTED] 57848.021
    
    [GRAPHIC] [TIFF OMITTED] 57848.022
    
    Mr. Boucher. Thank you very much, Mr. Meyers. Dr. Garrick.

  STATEMENT OF B. JOHN GARRICK, CHAIRMAN, U.S. NUCLEAR WASTE 
                     TECHNICAL REVIEW BOARD

    Mr. Garrick. Mr. Chairman and members of the subcommittee, 
good morning. My name is John Garrick. I am Chairman of the 
Nuclear Waste Technical Review Board and a consultant 
specializing in the application of the risk sciences to complex 
technological systems. I am pleased to represent the Board at 
this hearing. I will summarize my written remarks and ask that 
they be entered into the hearing record. As has been discussed, 
Mr. Chairman, after many years of characterizing Yucca 
Mountain, DOE recently submitted a license application to the 
NRC. As has already been indicated this morning, Ward Sproat of 
the Office of Civilian Radioactive Waste Management and his 
managers, engineers, and scientists deserve to be recognized 
for their hard work in achieving this major program milestone.
    The questions asked by the subcommittee in the invitation 
letter about what happens next are very timely. I will do my 
best to present the Board's answers to the question as directly 
and concisely as possible. First, Mr. Chairman, as far as the 
timing of licensing decisions is concerned, NRC can respond 
better to those questions. The subcommittee also asked about 
the roles of the various groups going forward. The board's 
technical role was established in the 1987 amendments to the 
Nuclear Waste Policy Act. The board performs an unbiased, 
ongoing peer review of the technical and scientific validity of 
DOE activities related to implementing the Nuclear Waste Policy 
Act.
    We take an integrated view of the many different elements 
of DOE's program and focus on fundamental understanding as 
opposed to regulatory compliance. We report our findings and 
recommendations to Congress and the Secretary of Energy at 
least twice a year. Because the Board is completely 
independent, it does not have a direct stake in the development 
of a Yucca Mountain repository, and it will not be a party to 
their licensing proceeding. That is as it should be. But we 
make the Board's body of technical work available by posting 
its letters, reports, congressional testimony, and meeting 
transcripts on our Web site. Anyone can use this technical 
information including parties involved in the NRC's licensing 
proceedings.
    Consistent with its congressional mandate, the Board will 
continue to report its integrated technical findings and 
recommendations to DOE and Congress. The subcommittee asked 
about technical issues that might cause delay or have budget 
implications. As part of the ongoing evaluation, the Board has 
identified several priority technical issues that if addressed 
could increase operational effectiveness or feasibility, 
enhance the technical basis for repository performance 
estimates, or improve fundamental understanding. I want to make 
clear, Mr. Chairman, that by identifying these issues the Board 
is not commenting on the sufficiency of DOE's license 
application. NRC will make that determination. Furthermore, the 
Board did not uncover any issue that it believes would have 
prevented DOE from submitting its license application for 
regulatory review. I will begin by commenting on three 
preclosure issues that in the Board's opinion could 
significantly affect funding requirements and schedules. 
Subsequently, I will address some post-closure issues.
    First, DOE's use of a canister known as TAD that can be 
used for transportation, aging, and disposal of spent nuclear 
fuel may have merit. However, a TAD that could be transported 
by truck does not currently exist, making the Nevada rail line 
necessary for transporting spent fuel to the repository. DOE 
has acknowledged that constructing a Nevada rail line may 
present significant institutional challenges. The board has 
recommended that DOE initiate contingency planning to identify 
alternatives that can be implemented if delays are encountered 
in building the rail line. Second, DOE assumes that 90 percent 
of spent nuclear fuel will arrive at the repository in TAD 
canisters. However, utilities may need incentives to use TADs 
and some nuclear plants may lack the necessary infrastructure 
to handle large TADs. Lower TAD utilization could adversely 
affect surface facility through-put and require construction of 
additional waste handling facilities or increase the amount of 
spent fuel placed in storage at the repository site.
    The Board recommends that DOE consider contingencies that 
could be implemented if TAD utilization rates are lower than 
the 90 percent assumed. Third, repository performance estimates 
included in DOE's total system performance assessment or TSPA 
depend on drip shields to prevent water and rocks from falling 
on waste packages. However, DOE assumptions about drift 
degradation and repository tunnel tolerances may make 
installation of the drip shields, as they are currently 
designed, problematic. Let me identify some examples of post-
closure performance issues. They are the potential for 
deliquescence-induced localized corrosion of the waste packages 
during the thermal pulse, questions about the rates of general 
corrosion of waste packages, and the magnitude and variability 
of water recharge that occurs as a result of climate change.
    We also will continue to follow DOE's work on seismicity 
and volcanism at Yucca Mountain. The Board believes that 
addressing these issues is feasible and could reduce 
uncertainty and strengthen the technical basis for DOE's 
repository performance estimates. Mr. Chairman, even though DOE 
has made significant progress over the last several years in 
enhancing the technical basis for the assumptions and analyses 
in TSPA, when estimating repository performance for up to 1 
million years some uncertainty is inevitable. Deciding how best 
to address such uncertainties can be challenging. DOE has 
addressed uncertainties by making what they consider to be 
conservative assumptions and using probabilistic 
representations of performance indicators, probability being 
the language of uncertainty. Another way to address uncertainty 
is to get more information so that the uncertainties can be 
reduced. In that regard, the Board has suggested design 
changes, contingency planning, and additional research.
    In answer to your question about schedules and budgets the 
different approaches require different time and resource 
commitments. Finally, Mr. Chairman, the Board historically has 
not recommended changes in legislation and policy because it 
views its role as providing needed technical context and 
information for decision makers. The Board is very comfortable 
with its statutory mandate and takes very seriously. We look 
forward to continuing our technical peer review. On behalf of 
the board members, I thank the subcommittee for inviting us to 
participate in this hearing. We hope this information we have 
furnished today will be of use, and I will be pleased to answer 
questions.
    [The prepared statement of Mr. Garrick follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.023
    
    [GRAPHIC] [TIFF OMITTED] 57848.024
    
    [GRAPHIC] [TIFF OMITTED] 57848.025
    
    [GRAPHIC] [TIFF OMITTED] 57848.026
    
    [GRAPHIC] [TIFF OMITTED] 57848.027
    
    [GRAPHIC] [TIFF OMITTED] 57848.028
    
    [GRAPHIC] [TIFF OMITTED] 57848.029
    
    Mr. Boucher. Thank you very much, Dr. Garrick. Mr. Fertel.

STATEMENT OF MARVIN S. FERTEL, EXECUTIVE VICE PRESIDENT & CHIEF 
           NUCLEAR OFFICER, NUCLEAR ENERGY INSTITUTE

    Mr. Fertel. Chairman Boucher, Ranking Member Upton, members 
of the subcommittee, thank you for the opportunity to testify 
today on behalf of the nuclear industry. My testimony will 
focus on the following issues: the role of nuclear energy in 
U.S. energy policy; Yucca Mountain as an important part of an 
integrated approach to managing used nuclear fuel; Yucca 
Mountain licensing process; and finally, some suggestions on 
improvements to the federal used fuel management program. As 
many of you already said, the Nation's 104 commercial nuclear 
power plans produce approximately 20 percent of our electricity 
and nuclear energy is by far the Nation's largest source of 
electricity. It does not produce either greenhouse gases or 
other regulated air pollutants.
    There is a growing consensus that any credible program to 
reduce greenhouse gas emissions in the U.S. and worldwide will 
require a portfolio of technologies and approaches and that 
nuclear energy is an indispensable part of that portfolio. 
While it is important to note that no new nuclear plants in the 
U.S. will be developed based on electricity market fundamentals 
the industry recognizes that the issue of safe and secure used 
fuel management is important to all stakeholders as they look 
at the benefits of nuclear energy towards meeting our 
electricity supply requirements and environmental goals. 
Congress should have continued confidence in the industry's 
demonstrated ability to safely and securely manage used nuclear 
fuel. This performance provides a solid under pinning for the 
continued and expanded use of nuclear energy. NRC's existing 
waste confidence rule provides a basis for addressing this 
issue in licensing proceedings.
    Absent the passage of legislation that codifies waste 
confidence from a national policy perspective, the basis for 
the existing NRC rule could be strengthened. Therefore, the 
industry believes that it is appropriate for the Nuclear 
Regulatory Commission to update its waste confidence finding 
through rulemaking. In this regard, we look forward to the NRC 
expediting a rulemaking on this issue beginning this year. The 
renewed interest in nuclear energy has led to a dialogue and 
growing consensus that an integrated approach to managing used 
nuclear fuel is needed. This approach consists of the following 
elements: centralized interim storage; appropriate research, 
development, demonstration and ultimately deployment of 
advanced recycling technologies to derive additional energy 
from used nuclear fuel and reduce the volume, heat, and 
radiotoxicity of fuel cycle byproducts; and ultimate disposal 
of those byproducts in a repository.
    The growing interest in central interim storage and nuclear 
fuel recycling does not eliminate the need for geologic 
disposal of the residual waste products from recycling, though 
it certainly could significantly modify the waste forms, 
volumes, toxicity, and repository designs associated with the 
final disposal of those products. The June 3, 2008, submittal 
of DOE's application to NRC to construct the Yucca Mountain 
repository represents a very significant step in a robust and 
rigorous scientific process towards development of a disposal 
facility. As others have said, Ward Sproat and the Yucca 
Mountain project team ought to be complimented for their effort 
in completing and submitting the license application. Like our 
experience in licensing operating reactors and other fuel cycle 
facilities, we expect the Yucca Mountain licensing process will 
be fair, open, transparent, and rigorous. DOE must demonstrate 
to the NRC that the repository will protect public health, 
safety, and the environment. Otherwise, the repository will not 
be licensed.
    The industry intends to participate as a party to the Yucca 
Mountain licensing process to help support a transparent, 
rigorous, and timely process, and to protect industry and its 
customers interest. Turning now to improvements to the used 
fuel management program. The Yucca Mountain licensing process 
is only one part of a larger effort to safely and securely 
manage used nuclear fuel. The first improvement needed reflects 
the need to allow the use of the nuclear waste fund for its 
intended purposes. Consumer commitments to the fund plus 
interest totaled $30 billion since 1983. To date, only a 
fraction of this money has been allocated for its intended 
purposes. Changes to how the contributions are made to and 
disbursements are taken from the fund are necessary.
    Second, a more effective management structure is needed to 
assure that all three elements of the integrated used fuel 
management program are effectively and efficiently carried out. 
Making the fund available will not by itself lead to success. 
Congress should consider alternative management structures for 
implementing the integrated used fuel program that allow 
private sector principles and public-private partnership 
arrangements to be effectively applied to better program 
management and implementation in the future. Industry urges the 
Committee to hold hearings to explore potential future funding 
and management options for implementing this more comprehensive 
used nuclear fuel program. In closing, I would again like to 
thank this committee for its diligence and commitment to 
insuring that our nation continues to benefit from the 
electricity provided by nuclear power plants and for its help 
in improving the implementation of and confidence in our 
nation's used nuclear fuel management program. I will be 
pleased to answer any questions.
    [The prepared statement of Mr. Fertel follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.030
    
    [GRAPHIC] [TIFF OMITTED] 57848.031
    
    [GRAPHIC] [TIFF OMITTED] 57848.032
    
    [GRAPHIC] [TIFF OMITTED] 57848.033
    
    [GRAPHIC] [TIFF OMITTED] 57848.034
    
    [GRAPHIC] [TIFF OMITTED] 57848.035
    
    Mr. Boucher. Thank you very much, Mr. Fertel. Ms. George.

    STATEMENT OF ANNE C. GEORGE, COMMISSIONER, CONNECTICUT 
DEPARTMENT OF PUBLIC UTILITY CONTROL; CHAIR, NARUC COMMITTEE ON 
                          ELECTRICITY

    Ms. George. Good morning, Mr. Chairman, Ranking Member 
Upton, members of the subcommittee. As the chairman indicated, 
I am a Commissioner from the Connecticut Public Utility Control 
Department, and as well I am a member of the NARUC Electricity 
Committee and Chairman of the Electricity Committee. I am 
testifying today on behalf of NARUC. NARUC's goals in the 
nuclear waste area are well known. Our members have been here 
several times and in other committee forums, and our message 
has been very consistent. Simply put, the Federal Government 
needs to meet its obligation under the Nuclear Waste Policy Act 
to accept spent nuclear fuel from utilities and other nuclear 
generators in a timely manner for safe disposal.
    The Nation's ratepayers have upheld their end of the 
bargain struck in the Nuclear Waste Policy Act by providing 
more than $27 billion for use in constructing a nuclear waste 
repository. Connecticut ratepayers alone have paid $766 million 
into the fund. Additionally, NARUC believes that the nuclear 
waste fund should only be employed for its intended purpose. 
Monies in the fund should be utilized for the sole purpose of 
supporting the opening of the Yucca Mountain facility in a 
timely fashion. NARUC was very encouraged with the filing of 
the Yucca Mountain construction license application. We commend 
the DOE for their work on this project of unprecedented scale. 
But as we move forward, we feel there is a critical need to 
address the financial basis for the program that will offer 
greater certainty than the year-to-year suspense of the current 
appropriations process. As many of the members in their opening 
statements commented, this current appropriations process 
doesn't seem to work well for this large scale project.
    The Nuclear Waste Policy Act created a well-designed fund 
that was intended to collect fees based on generation of 
electricity from nuclear sources sufficient to pay for the safe 
disposal of commercial spent fuel in a geologic repository. 
However, in reality the fund is not operating as intended. 
There is no connection between the revenue collected from the 
country's ratepayers and appropriations for the project. The 
appropriations that have been made available to the repository 
program have continuously been reduced by Congress, and we 
acknowledge and appreciate past attempts by the Energy and 
Commerce Committee to reform the way in which appropriations 
are made from the nuclear waste fund, and we also appreciate 
that the Administration has twice proposed legislative remedy 
through the Nuclear Fuel Management and Disposal Act.
    However, none of these reforms have moved forward to actual 
passage and NARUC is concerned that the current appropriations 
process will not be adequate to support the timely design and 
construction of the project. I believe Mr. Sproat laid out well 
the budgetary disconnect between what the appropriations have 
been and what the program needs are. I am going to just touch 
on a few other matters of concern for NARUC members briefly. We 
encourage the DOE to develop a plan for DOE to move spent fuel 
from the decommissioned reactor storage sites that exist around 
the States. We have one such site in East Haddam, Connecticut, 
the former Connecticut Yankee facility. With the removal of the 
spent fuel, these sites can be fully decommissioned and 
reclaimed for other beneficial uses.
    Also, many people are fearful of the perceived risk of 
transportation of spent fuel and other high-level radioactive 
material. NARUC believes that education and nuclear waste 
transportation is vital to increasing understanding and public 
confidence in the transportation of spent nuclear fuel. In 
conclusion, we are pleased that the matter of the safety and 
suitability of the proposed repository is before the NRC, which 
is the agency designated by law and with expertise to make 
those determinations. It goes without saying that NARUC wants 
the repository to meet all safety and health standards. At this 
time, I will wrap up, and I want to thank the Committee for its 
attention.
    [The prepared statement of Ms. George follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.036
    
    [GRAPHIC] [TIFF OMITTED] 57848.037
    
    [GRAPHIC] [TIFF OMITTED] 57848.038
    
    [GRAPHIC] [TIFF OMITTED] 57848.039
    
    [GRAPHIC] [TIFF OMITTED] 57848.040
    
    [GRAPHIC] [TIFF OMITTED] 57848.041
    
    [GRAPHIC] [TIFF OMITTED] 57848.042
    
    [GRAPHIC] [TIFF OMITTED] 57848.043
    
    [GRAPHIC] [TIFF OMITTED] 57848.044
    
    [GRAPHIC] [TIFF OMITTED] 57848.045
    
    [GRAPHIC] [TIFF OMITTED] 57848.046
    
    [GRAPHIC] [TIFF OMITTED] 57848.047
    
    [GRAPHIC] [TIFF OMITTED] 57848.048
    
    Mr. Boucher. Well, Ms. George, thank you very much and 
thank each of the witnesses for your testimony here this 
morning. Mr. Sproat, let me begin my questions with you. There 
is currently in law a 70,000 ton statutory limit on the 
capacity of Yucca Mountain. On what is that limit based? Was it 
an arbitrary decision or was it based on some technical 
characteristic of the site?
    Mr. Sproat. Well, Mr. Chairman, that limit is in the 
Nuclear Waste Policy Act, and since I wasn't around at that 
point in time, I don't know exactly all the logic but all of 
our studies including our environmental impact studies indicate 
that the technical capability of Yucca Mountain repository is 
at least twice that, and there have been some studies done by 
the Electric Power Research Institute to indicate 3 to 4 times 
that amount. I will say, however, that we are about ready to 
issue a report on the need for a second repository, and one of 
the things that report will point out is that in the Nuclear 
Waste Policy Act as it is currently written, that 70,000 metric 
ton limit on Yucca only applies until a second repository goes 
into operation. If a second repository is licensed and goes 
into operation somewhere else in the U.S. that 70,000 metric 
ton limit on Yucca expires.
    Mr. Boucher. Meaning that it is eliminated?
    Mr. Sproat. That is correct.
    Mr. Boucher. Meaning that more waste could then be stored 
at Yucca?
    Mr. Sproat. That is correct.
    Mr. Boucher. And that is current law?
    Mr. Sproat. That is current law.
    Mr. Boucher. Dr. Garrick, do you happen to know whether or 
not there was some technical reason related to the 
characteristics of the site itself that that 70,000 ton limit 
was chosen?
    Mr. Garrick. No. The board----
    Mr. Boucher. That is a sufficient answer. My time is a 
little limited so let me just move on to something else. It is 
just a curious matter as to why that number was said, and I am 
looking for some rationale for it. At the current level, I 
think the U.S. Government has already assumed about $250 
million in liability to the electric utilities for not having 
met the commitment which matured in 1998, that the high-level 
waste be taken by the Federal Government from those utilities. 
And obviously that sum will grow over time, which leads to the 
question of whether or not it might be more cost effective to 
have an interim storage facility that would be under government 
ownership that would then take that waste and store it in one 
central location.
    I think another argument potentially for doing that is that 
the central storage of that waste might be safer than keeping 
the waste at a variety of sites around the country, each of 
which might have its own particular vulnerabilities. Mr. 
Sproat, what is your view of that, first in terms of cost 
effectiveness and then secondly in terms of whether or not a 
central facility might be safer?
    Mr. Sproat. Mr. Chairman, we have completed our report on 
the interim storage option that the House Appropriations 
Committee asked us to prepare, and it is in final review. 
Essentially what that report is going to say is that, number 1, 
in order for the Department to have the authority to proceed 
with interim storage at a central location, we would need 
additional legislative authority. The Nuclear Waste Policy Act 
specifically does not allow us to take commercial spent nuclear 
fuel until Yucca Mountain is operational. We do have authority 
to take----
    Mr. Boucher. Well, understanding we would have to pass 
another law to make that possible. Let us get to whether or not 
it is a good idea. First, what is your judgment on that?
    Mr. Sproat. I don't believe so, and I will tell you why. 
Number 1 is that, first of all, we would have to find a site 
for it, and while some folks have said, well, we will find a 
local community that would be willing to host it, I would say 
that Nye County in Nevada, which is the host county for the 
Yucca Mountain repository, would like to host the repository, 
but the State is obviously, as Ms. Berkley talked about, is 
very much opposed. The siting of an interim location and the 
gaining of not only local acceptance but State acceptance and 
surrounding State acceptance is very problematic, and when you 
take a look at realistically, number 1, could that be done and, 
if so, how long it would take, at the point where we are now 3 
to 4 years away from possibly being ready to begin construction 
of Yucca Mountain. I don't believe it is a cost effective 
solution.
    Mr. Boucher. All right. That is a thorough answer. Thank 
you. Mr. Meyers, the Circuit Court of Appeals for the District 
of Columbia rejected the original EPA health and safety 
radiation standard, and required that you formulate one based 
on a million year time horizon. Where are you in completing 
that work and do you have a projected date by which that 
standard will be completed, realizing that it has to be used by 
the NRC in reviewing the license application?
    Mr. Meyers. Yes, Mr. Chairman. We are well aware of our 
role and responsibilities in this matter. We did go out in 
response to the district court case. We have been in an 
interagency review and a number of discussions, and we would be 
hopeful to resolve those discussions in a timely fashion. So we 
anticipate we will complete our duties under the law and 
promulgate a final standard.
    Mr. Boucher. By what date? I am sorry.
    Mr. Meyers. I probably cannot give you a specific date, 
sir. I would like to do that, but I am not in a position to do 
that.
    Mr. Boucher. Can you give me a suggested timeframe within 
which you might do that?
    Mr. Meyers. Well, this Administration is committed to 
finishing its work so----
    Mr. Boucher. During the course of this Administration?
    Mr. Meyers. Yes.
    Mr. Boucher. Well, that is a very good answer. Thank you. 
My time has about expired. Dr. Garrick, I have one additional 
question for you. A number of the members of this subcommittee 
have expressed an interest in exploring the possibility of 
having nuclear waste reprocessing, and there are many technical 
issues that are associated with the potential for moving to 
that strategy. Before any further consideration could take 
place of that, I think we would have a range of technical 
questions that we would need to have answered. Does your 
organization have any history of looking at that issue and is 
it within your charter to consider and perhaps answer the 
questions associated with reprocessing?
    Mr. Garrick. Our Board has not looked at reprocessing. We 
have looked at--we have been pretty much focused on the issues 
associated with implementing the act and how it is being 
implemented at the current time. The board certainly has 
technical capability to address a much broader scope of 
questions relating to waste and waste handling than just 
analyzing the Yucca Mountain project, we have not been asked to 
do that.
    Mr. Boucher. But if we were to pose questions to you, you 
are in a position to respond?
    Mr. Garrick. Yes.
    Mr. Boucher. Well, that is good to know. Thank you. My time 
has expired. The gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I would like to follow 
up on two of your questions. First of all, Mr. Sproat, the 
question was raised about the 70,000 metric tons of waste in 
terms of a cap. You indicated a couple ways that the cap could 
be lifted. What are the estimates in terms of how much the 
repository physically can hold?
    Mr. Sproat. In our current documents, and because the 
Nuclear Waste Policy Act places that 70,000 metric ton limit on 
it our license application only analyzes or designs the 
repository to that limit. But our environmental impact studies 
looked at, I believe it is 130,000 metric tons, and indicated 
that would not have any adverse environmental impact of that 
level. We at the Department haven't evaluated anything higher 
than that, but the geologists tell me who know the site pretty 
well, there is plenty of room to go larger than that.
    Mr. Upton. OK. Mr. Meyers, you indicated that you thought 
that the radioactivity standard would be done yet this year or 
at least by January 19 of next year. Mr. Weber, if they don't 
issue a final radioactivity standard, will you be able to 
complete your review of DOE's license application?
    Mr. Weber. No, sir.
    Mr. Upton. OK. Mr. Sproat--I just wanted a yes or no. There 
are a number of us that have supported taking the nuclear waste 
fund off-budget. If we were able to take it off-budget, could 
you tell us how that might expedite construction of the 
repository?
    Mr. Sproat. We are at a point now where now that we have a 
preliminary design that we have submitted with the license 
application, the shortest potential critical path to get us to 
opening the repository in the best achievable schedule is 2020. 
And we have re-baselined the program based on receiving flat 
funding at about $495 million a year for this year and the next 
3 years. But then at that point in time ramping up the funding 
to approximately $2 billion a year, and it varies from year to 
year. Every year we don't hit that funding profile that date 
will push out.
    Mr. Upton. So, Mr. Weber, if the energy and water 
appropriation bill freezes things at the '08 level, which I 
guess is likely to do based on what we are seeing in terms of 
the appropriations committee now, how will that affect--how 
will even a 1-year freeze impact the review of the license 
application?
    Mr. Weber. It will put the NRC's ability to complete the 
construction authorization decision in 3 to 4 years in peril. 
At that level of funding which already started in fiscal year 
'08 it is reduced below what the NRC projected would be 
necessary in order to support the 3 to 4 year review.
    Mr. Upton. By about a billion dollars?
    Mr. Weber. No, sir. Our appropriations are far less than--
--
    Mr. Upton. No, but the shortfall being about a billion 
dollars?
    Mr. Weber. I believe in fiscal year '09 the House 
Appropriations Committee boosted by $36 million, which puts us 
in the range of support on an annual basis that we would need 
to meet the 3 to 4 year review cycle.
    Mr. Upton. OK. Ms. George, has your organization taken a 
stand on taking the funding off-budget?
    Ms. George. Yes. It is something that we have supported in 
the past and we continue to support. We think that as Mr. 
Sproat indicated, when you look at what the program costs are 
and what is being appropriated the match isn't there obviously 
and the best way to handle that is to take it off-budget.
    Mr. Upton. And I look at my State of Michigan, we have a 
number of different sites with nuclear reactors, two in my 
district. One is using a dry cask storage. Another one is about 
ready, they received a license review to do that. We have one 
facility that is closed as well up in the northern part of the 
peninsula and they are storing high-level nuclear waste there. 
How long do you think these--has NARUC looked at the number of 
different facilities around the country, 104, I think, 
different active reactor facilities? Have you all taken a stand 
in terms of how long you want that high-level nuclear waste 
stored in those temporary sites?
    Ms. George. At those individual sites?
    Mr. Upton. Correct.
    Ms. George. I don't think that we have actually--the 
membership has looked at the exact length of time. No, I am 
being told. I think most of the members are concerned about 
that, that dispersement of the storage at the individual sites, 
and several States have been in litigation with the Department 
of Energy over the moving of spent fuel to a permanent 
repository, and so the membership's goal is to move it as 
quickly as we can, and we see the budget issues as being the 
biggest impediment right now to getting to that permanent 
repository.
    Mr. Upton. Thank you. Thanks very much.
    Mr. Boucher. Thank you very much, Mr. Upton. The gentleman 
from Texas, Mr. Gonzalez, is recognized for 8 minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. And Mr. 
Sproat, Mr. Weber, Mr. Meyers, especially, I represent half of 
San Antonio, Texas. CPS Energy is the municipally-owned 
utility, part owner of the south Texas nuclear project, and a 
pro-advocate and partner with NRG on that application that is 
pending out there, one of the first in a long time. I am sure 
that you all are aware that the utility, especially a 
municipally-owned utility, is a tremendous investment just in 
the application stage, huge, and for us because it is 
municipally-owned that means that you have the city council 
that is involved, the ratepayers. It is very political, unlike 
maybe other situations. But what I am hearing here today is 
probably going to cause some concern. My fear is that it will 
be used and seized upon as an argument against expanding our 
portfolio to include greater nuclear capacity, which makes a 
lot of sense to me.
    Mr. Weber, your testimony was that if everything doesn't go 
according to plan, and Mr. Sproat, I think you really are going 
to be considering alternatives in the interim site, storage 
site, and so on, so I think we are relegated, committed to the 
process. But what Mr. Weber is saying is if things don't go 
accordingly and there is an approval or there is delay then 
that application sits there in limbo and delays what you are 
already viewing as a time process or time line to approve an 
application indefinitely, is that correct?
    Mr. Weber. If you heard that I said we were going to put it 
in limbo--no, no, you didn't say you were going to put it in 
limbo but it does have a consequence. What is the consequence?
    Mr. Sproat. We will review the application should we docket 
it later this year. What will happen if the NRC is not given 
sufficient appropriated funds to support that review is it will 
stretch out that review schedule. At this moment, we are 
preparing options for the Commission in light of those 
projected resource forecasts so that the Commission can decide 
which approach it wishes to take. We are committed to fulfill 
our statutory responsibility to the Nuclear Waste Policy Act 
and the Atomic Energy Act, but we need to do it responsibly and 
responsibly to the NRC is to ensure the safety and the security 
of those that would be directly affected by the repository.
    Mr. Gonzalez. And that is understood. I mean one thing is 
funding, that you are adequately funded to go ahead and proceed 
with what your duties and responsibilities, and then those are 
predicated on obviously safety and health concerns and such. I 
think we all understand that. But I think walking away from 
this hearing today because I know I am going to be hearing from 
my folks back home as to what was the end result of what we 
heard here, are we on track, when will all this--because let me 
see if I got this straight, Mr. Sproat, if everything is 
according to plan, everyone is funded, the plans are up to 
muster, everything, you are looking at something being 
operational in 2020, is that correct?
    Mr. Sproat. That is the best achievable date if everything 
went right, including the key issue of us receiving essentially 
an unrestrained cash flow for funding on the shortest possible 
critical path.
    Mr. Gonzalez. All right. And, Mr. Weber, if 2020 is not the 
target date, how does that impact the review and the approval 
of an application for expanding the south Texas nuclear project 
or any other project in the United States today?
    Mr. Weber. Mr. Gonzalez, you may be familiar with the waste 
confidence proceeding that the Commission undertook decades ago 
now. The staff was recently directed by the Commission to go 
back and revisit that Waste Confidence finding and we have 
recommendations now pending before the Commission, including 
options for the Commission to consider. I think it is important 
to point out that as part of Waste Confidence, the NRC 
determined back in 1990 that spent nuclear fuel could be safely 
stored with minimal to no environmental impact for at least 100 
years, so we have confidence that the material could be stored 
safely during that interim period should there be a delay in 
the opening of the repository.
    There is still a need for the repository, and that is why 
we are doing our part to do the licensing review if we accept 
the application.
    Mr. Gonzalez. So let me see, if south Texas came aboard in 
the '70s, we got 30 years so we got about 70 years to play with 
where we are going to be OK then. But what I am saying is I 
think delay doesn't really work to anyone's benefit, and I am 
going to share the concerns expressed by some of the 
individuals today, some of my colleagues, unfortunately, that I 
think that regulatory delays and such and implementing what we 
are going to have as a permanent site, now whether that was 
prudent or not, picking one huge site even though there may be 
another one in the future in retrospect maybe not but we are 
really faced with this. But the problem is that this particular 
aspect of nuclear energy is being capitalized as an argument 
against expanding our nuclear capacity. We really don't need 
that at this point in time so your responsibility and duty is 
huge. It could very well determine where we are going.
    And I don't know whether further judicial action may take 
place where you have a court that is going to--you may have a 
judge that simply says you still don't have anything in place 
as a permanent storage so there are some concerns here and by 
judicial edict you could actually delay further implementation. 
This is actually pretty scary, but I am going to go back and 
finish up in the last couple of minutes with just a question to 
the first 3 members--the witnesses, I am sorry, Mr. Weber, Mr. 
Meyers, and Mr. Sproat, and that was what my colleague and the 
ranking member actually alluded to, and that was about 
alternatives. In his opening statement, he made some reference 
to alternatives. Do we have any other options other than what 
we presently have on the table, and of course with the 
opposition as expressed vigorously by Congresswoman Berkley. Do 
we have any other options that are realistic, that would be 
timely and feasible?
    Mr. Sproat. I will take my first cut at answering that, Mr. 
Gonzalez. I believe the answer to that is today, no. The 
Nuclear Waste Policy Act set up the Federal Government 
direction on spent nuclear fuel with disposal of commercial 
spent nuclear fuel and high-level nuclear waste from the 
defense sector in a repository. That is the only direction that 
the Department of Energy has at this stage of the game. It is 
the only direction it has had for the last 20 years, and we 
have finally gotten to the point where we are 3 to 4 years away 
from knowing whether or not that path is successful or not.
    Mr. Gonzalez. Mr. Weber and Mr. Meyers, do you all have an 
opinion as to alternatives?
    Mr. Weber. I would concur with Mr. Sproat. That is the law 
of the land as defined in the Nuclear Waste Policy Act. If 
there were a need to revisit that, the leadership would come 
from the Congress as advised from the agencies that are before 
you.
    Mr. Gonzalez. Mr. Meyers.
    Mr. Meyers. As I stated in my opening testimony, our role 
here is to develop standards specific to the site and 
applicable to the site so that we are operating under that very 
specific authority in the Nuclear Waste Policy Act.
    Mr. Gonzalez. The information you glean from the roles that 
you presently play though I think are important if in fact 
somewhere along the way someone is going to say are there 
alternatives, so I know you have that in mind. I don't think we 
are going to get any word on that today, but I am going to 
yield back and thank the chairman.
    Mr. Boucher. Thank you very much, Mr. Gonzalez. The 
gentleman from Illinois, Mr. Shimkus, is recognized for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I appreciate my 
colleague from Texas's line of questioning because you are 
complying with legislation that we passed, and the answer to my 
colleague's question is based upon the Nuclear Waste Policy 
Act. Another question could be, what legislative changes can we 
do to move more rapidly, what processes? We know we need more 
electricity generation for the future. We know that nuclear 
power should be part of the portfolio. I have been told--we 
passed loan guarantees in the 2005 energy bill as an incentive. 
I have also been told that the most important thing that we 
could do is move aggressively to open Yucca Mountain by the 
nuclear power industry. It sends a signal to the industry that 
we are not going to force them to hold this stuff that we have 
agreed to take forever to a point.
    So I have a couple questions. Mr. Sproat, why don't we 
consider the Yucca--first of all, I want to respond to my 
colleague, Ms. Berkley. I live in the Midwest, not the east, 
and I live down state in Illinois, not in the Chicagoland where 
all our nuclear power plants are except for one, but I have 
been to Yucca Mountain, and it is a mountain and it isn't a 
desert and there is nobody around there. That is true. Where in 
the greater Chicagoland, I imagine there are 10 nuclear power 
plants with a population of about 9\1/2\ million people around. 
This doesn't take a hard jump. So why don't we consider doing a 
couple things. If we have to go to interim storage, why not 
interim storage at the Yucca Mountain site?
    Mr. Sproat. Mr. Shimkus, if we were to go with interim 
storage that would be the place that would make most sense to 
put it because we would eventually have to move the waste there 
anyway. However, in current law the Nuclear Waste Policy Act 
specifically prohibits the development of interim storage at 
the Yucca Mountain----
    Mr. Shimkus. Great, because my time is limited. Let me 
highlight that, Mr. Chairman. Current law. These guys are 
constrained by the Nuclear Waste Policy Act. If the citizens 
were listening to this debate, they would just be bonkers. 
Since 1982 doing this to where we are at today to 2020. No 
wonder we have energy issues, and no wonder we have energy 
problems.
    But I would think it would make sense, and it would also be 
great for the great State of Nevada if we had an interim site, 
we did a reprocessing facility right there, and then the high-
level remaining residue could go right into the mountain. It is 
clear and we need to change the law to do that. Ms. George, we 
have talked about last week again going back to the other bill 
on carbon capture and sequestration about the roles of the 
Utility Commission on rates and what you have done. And, of 
course, the rates that you have agreed to allow to be charged 
to go to this fund was also part of our debate. Why isn't there 
a movement by the Utility ommissioners to say the Federal 
Government has overcharged, they are not paying foCr the site, 
we are going to drop that rate off the bill? Why don't you get 
some federalism backbone and call our bluff?
    Ms. George. Well, we have tried to do that by actually 
preventing the rates to be collected. We haven't gone that far 
but that is the purpose of me being here today and NARUC, we 
passed several policy resolutions. We have been here on the 
Hill testifying numerous times on this. I agree with you, it is 
outrageous that ratepayers have had to pay this fund for this 
number--this rate for this number of years. And we are getting 
to a point definitely where we are fed up with this now getting 
to the point of not approving the rate as not being fair and 
reasonable because it is not going to the intended purpose. 
Obviously, that is something that would be the next step. But 
we have a federal law in place that allows for these costs 
and----
    Mr. Shimkus. But that is a thing that the State 
commissioners and the State could decide to do. You could 
decide that so much money has gone to this fund, so little has 
been paid out, the Federal Government is not meeting its 
obligations, we are not collecting it for the Federal 
Government anymore. States could make that decision. I am just 
doing this based upon our debate last week of this other 
proposed bill on this charging and this regulatory issue on the 
transmission to help incentivize carbon capture and 
sequestration. My opening statement talked about, why trust us 
when we have this Nuclear Waste Policy Act that has been a 
disaster? It speaks to probably letting the private sector do 
it versus us.
    Ms. George. And I understand what you are trying to get to. 
The way the process is set up the utilities make the payments 
and then the costs are passed through in the rates, and so it 
is very difficult for the Utilities Commissions to not allow 
that portion. It is built into the rates, and so I think what 
you are suggesting----
    Mr. Shimkus. We are just looking for help, and this 
testimony is great but sending price signals I think is even a 
stronger message. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Shimkus. The 
gentleman from Utah, Mr. Matheson, is recognized for 5 minutes.
    Mr. Matheson. Thank you, Mr. Chairman. I have 2 or 3 lines 
of thought I will try to fit into the 5 minutes. First of all, 
I would like to ask unanimous consent to insert for the record 
a letter sent by the Nevada Senate and House delegation to the 
Nuclear Regulatory Commission on June 5, 2008, relative to the 
license application.
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Matheson. And I wanted to read 1 paragraph from this 
letter because I think people might find this pretty 
interesting. It has to do with one of the engineering firms 
that was looking at bidding on DOE's contract to design the 
transportation aging and disposal cast part of the project. 
They withdrew from bidding and when they withdrew they said the 
following. One reason for reticence in this matter is the 
materiality of the project which as configured is a mission 
impossible. Consider DOE's mandate that the aging module at the 
geological repository operations must be able to remain stable 
under the ecosites design basis earthquake. At 3 times the 
acceleration due to gravity the Yucca quake will turn an array 
of freestanding casks into a chaotic melee of bouncing and 
rolling juggernauts. A computer simulation of a freestanding 
earthquake available upon request from us will convince the 
reader of this publication that pigs will fly before the cask 
will stay put.
    And that is what one engineering firm thinks about one of 
the technical aspects of this project, and I think it is 
important for us to put on the table that not all these issues 
have been resolved as of yet. The issue on interim storage, I 
just wanted to emphasize the bill I mentioned earlier has to do 
with on-site interim storage. It is not creating the new 
interim storage facility some place in America. It is talking 
about leaving it on-site where it is today. And I thought that 
the point Mr. Shimkus made about we have been sitting around 
since 1982 when the Nuclear Waste Policy Act was passed, things 
have changed since 1982. Dry cask storage didn't exist in 1982, 
and it does exist now as a bona fide technology.
    And so I would ask, first of all, Mr. Sproat, have you at 
DOE evaluated the cost effectiveness. Because I know the 
Chairman earlier asked about cost effectiveness of different 
options, he asked about the cost effectiveness of interim 
storage facility if it was a separate facility, but I want to 
know about whether the cost effectiveness of leaving the waste 
on-site and dry cask storage is a method we could use.
    Mr. Sproat. Mr. Matheson, it really becomes a question of, 
so for how long are you going to leave it there, and when would 
the Federal Government take up the cost of guarding it, storing 
it, and eventually it is going to move, and the longer you 
leave it there the more it is going to cost to eventually move 
it to wherever you are going to move it to. So I don't see 
interim storage on-site with federal ownership being a cost 
effective solution because in fact it is not a solution.
    Mr. Matheson. Has DOE even evaluated the cost 
effectiveness?
    Mr. Sproat. We do that because right now under the current 
legal construct, we are being held liable for incurred 
incremental cost at the utility----
    Mr. Matheson. Have you evaluated the cost effectiveness of 
looking at putting it on-site, dry cask storage, for let us say 
another 100 years?
    Mr. Sproat. Not at every site, no.
    Mr. Matheson. OK. I wanted to make sure of that. Mr. 
Fertel, I notice the Nuclear Energy Institute has predicted 
that 83 of our country's 104 nuclear power plants, that is 80 
percent of the existing plants, will have on-site dry cask 
storage by the year 2050. The nuclear industry may very well be 
preparing for a future where Yucca Mountain isn't your only 
option for your waste. If the Yucca repository is never built, 
will that be the end of the nuclear power industry in the 
United States?
    Mr. Fertel. I mean the Yucca license application just went 
in. The NRC will review it. We believe that it is certainly 
licensable but they need to determine that, so there is always 
the possibility in our country that something doesn't get a 
license from a health and safety standpoint so, no, it is not 
the end of nuclear power. What we need to do then is find 
alternatives if Yucca Mountain is not licensable. We should go 
forward and see if it is licensable. And what you are seeing we 
are projecting is because DOE has not been able to begin to 
move used fuel starting in 1998 and basically our sites have to 
put in dry cask storage, and that is why PUCs are allowing the 
waste fund contributions to go forward. If I can just respond 
to something----
    Mr. Matheson. I am really running out of time. I would be 
happy for him to respond to Mr. Shimkus if the Chairman will 
grant us more time, but let me ask one more question. Mr. 
Sproat, you have indicated to Congress that you would provide a 
life cycle cost estimate for the Yucca Mountain project. In 
July of 2006 you promised this committee that type of item in a 
report. In March, 2007, DOE gave Congress a budget project 
promising to submit a life cycle cost report by late 2007. In 
October, 2007, you reiterated that a report was coming during a 
hearing for the House Budget Committee. When do you think DOE 
will finally deliver the life cycle cost estimate?
    Mr. Sproat. Within the next 2 to 3 weeks. That report is 
done, but we are planning on releasing that report at the same 
time that we are releasing the required annual fee adequacy 
assessment. In other words, based on that total system life 
cycle cost estimate, we take a look at the adequacy of the 1 
mill per kilowatt hour fee. We are releasing both of those 
reports at the same time because I think that way the Congress 
will get a total picture in terms of the cost impact and the 
fee impact of the cost of the repository based on the design we 
have submitted to the NRC.
    Mr. Matheson. We anxiously await that report, Mr. Chairman. 
I have used my time. Thank you.
    Mr. Boucher. Thank you very much, Mr. Matheson. The 
gentleman from Arizona, Mr. Shadegg, is recognized for 5 
minutes.
    Mr. Shadegg. Thank you, Mr. Chairman, and I want to thank 
all of our witnesses. I want to begin by saying I am somewhat 
frustrated. As I have watched this Congress unveil itself, I 
have noticed that every significant bill, every politically 
charged bill, every major piece of legislation, and this seems 
to be a growing trend, that we move through the floor that we 
move through as a suspension, and it is usually coupled with a 
motherhood and apple pie vote plus a terrible vote for the 
minority and nobody wants to allow any amendments and nobody 
wants to allow any regular order. And I hope that the committee 
chairman and subcommittee chairman on the majority side are 
beginning to get frustrated at that breakdown because I don't 
think that is a process that serves the country very well, and 
it makes me wonder why I spend my time listening in hearings. I 
know I learn a lot from these gentlemen, but it is not one 
thing to learn it. I need to also be able to use that knowledge 
to work, to shape legislation that benefits the American 
people.
    So with that caveat, let me begin by saying in a certain 
way I want to echo the words of Mr. Shimkus, which is that I 
think if American were truly watching this hearing today, they 
would be saying, excuse me, 1982 to 2020, and I think they 
would really be saying, are any of these witnesses or any of 
those members of Congress reading the daily news because we are 
in a crisis in this country. We have just discovered that oil 
has gone through the roof. We know that at least a substantial 
number of Americans believe greenhouse gases are threatening 
our planet, and nobody is kind of awake. Nobody has recognized 
that nuclear power holds tremendous potential.
    Last weekend I was home in my district, spent some time 
with a group of people socially, and I got literally jumped by 
the people I was with by saying why aren't you doing more with 
nuclear, why are you letting it sit there, why is France so 
ahead of us, why is Japan so far ahead of us, and they are kind 
of looking at me and saying I think you guys are completely 
negligent. You are not doing anything. You are not moving 
quickly enough. And you are kind of operating today in the 
world we had at least 2 years ago or maybe more, which is 
energy prices are reasonable. Americans can't afford energy as 
it is. We can't afford not to produce more domestic energy. We 
can't afford to set ANWAR aside. We can't afford to set off our 
coastal regions, and we can afford to drag our feet on nuclear.
    And they are looking at me and saying what is it about 
today's reality you haven't figured out because we can't do 
that any longer. It was one thing to indulge ourselves in 
taking oil shale and saying we are never going to produce it in 
the United States when gas prices were $1.75, $2.25, $2.50, 
maybe $3.00, but, Congressman, they are not $3.00 now. They are 
not even $4.00 now. They are not even $4.10. That may be the 
average but across the Nation in many places they are way 
higher than that and you guys seems to be just kind of walking 
through past the graveyard paying no attention, so I guess my 
question for any of you that would like to answer is if the 
chairman of this subcommittee or the chairman of the full 
committee were to say to you today, the presidential candidates 
have embraced nuclear. Nuclear is where we need to go and need 
to go rapidly. How quickly could you produce a report for us 
saying here are things you can do to dramatically speed this 
process up to get fuel storage in a central location where it 
is away from the population of Chicago and to get it done in X 
years and how small can that number be because I think 2020 as 
the earliest, which you posited today, is unrealistic given the 
change in the political dynamic we have seen in the last 90 
days. Are there any of you what would like to respond to that?
    I have people at home saying we need an Apollo project on 
energy, and I don't hear any Apollo project on energy sediment 
from any of you and maybe you haven't been given an opportunity 
to say, well, Congressman, here is what we can do. I am giving 
you that opportunity.
    Mr. Sproat. Congressman, I appreciate the opportunity. I 
will take a first cut. For those of us who are very strong 
supporters of nuclear power in this country the reason I took 
this job is I very strongly believe that this country needs 
more nuclear energy. It has to be part of the strategic energy 
mix.
    Mr. Shadegg. So do I.
    Mr. Sproat. In my time in the industry everybody who has 
been a valid anti-nuclear advocate asks the same question, 
well, what about the waste? That is the key argument of why we 
shouldn't build any more nuclear power plants. Well, we are 3 
to 4 years away from answering that question and putting it to 
bed finally. And I and my team have been working very hard to 
get this license application together to get a design for the 
repository that the Nuclear Regulatory Commission will find 
acceptable. I believe we have done that. And, unfortunately or 
fortunately, that is how long the process has been set up by 
the Nuclear Waste Policy Act. And I can't speak for Mr. Weber, 
and he can't forecast how the NRC process is going to come out, 
but I do believe we have set this country on a path of 
potential success of having an approved repository in the next 
3 to 4 years, so the issue of what about the waste is no longer 
a question to be asked of the nuclear industry and nuclear 
power in this country.
    Mr. Shadegg. Will a slow budget process by this Congress 
slow that down or keep it at that number, and would it get 
faster if we did an Apollo project and gave you the money you 
needed?
    Mr. Sproat. It will not get faster. It cannot get faster 
than 2020. In other words, that is the fastest it can go. Even 
if Mr. Weber completes his review in 3 years, we get the 
funding request per the cash flows at the numbers I sent up 
here before, 2020 is the earliest, and, quite frankly, that is 
at risk because of litigation. We know there is going to be 
additional litigation, and we know there are other issues that 
the State of Nevada and others will bring up, particularly 
around water rights and transportation, but it can be done.
    Mr. Shadegg. Anybody else want to comment?
    Mr. Fertel. I think, Congressman, let me just posit that if 
we do an Apollo project it probably should be focused on supply 
and we should deal with the waste, but I would not throw all my 
energy on to waste. Waste is managed very safely right now. I 
think Ward said it right. Opponents to nuclear energy always 
say what about the waste. Actually, people in our industry say 
that sometimes. We are focused on the wrong thing.
    Mr. Shadegg. I think I heard somebody today, I think Mr. 
Weber said we can store it for 100 years with the technology we 
have right now.
    Mr. Fertel. And we don't want to do that. We do want it 
moved, and we need to move forward. As the Ranking Member said, 
there is a lot of thinking and smart thinking about maybe 
recycling that we should be looking at, and as Dr. Garrick just 
mentioned geologic repositories are basically unanimously 
supported by the scientific community as the ultimate place to 
go with waste. What we need to do is move forward in a 
plausible way. I think for the American public, you are going 
home and speaking to them, they are looking for plausibility 
and action. The action we need in this country right now in 
electricity space is supply, improved transmission, improved 
supply, and that is everything from renewables to nuclear 
power.
    And your discussion on carbon sequestration that Mr. 
Shimkus mentioned, clearly you can do it technically but we are 
just not sure you can do it on the scale you need to do it. So 
as a Nation our challenge in the electricity supply side is 
to--that is the Apollo project I would honestly think we need 
to look at, and I think the thought of changing some of the 
waste legislation to make it more plausible would also be very 
helpful not just from a licensing of Yucca but for also looking 
at alternatives that have been mentioned.
    Mr. Shadegg. Thank you. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Shadegg, and I want 
to thank each of our witnesses for the time you have spent with 
us today and your very thoughtful responses to our questions. 
And to the 3 agencies represented here, let me thank you for 
your diligence. You are doing the very best that you can with 
serious constraints from a budgetary perspective. That is 
particularly true of our first 2 witnesses, and we acknowledge 
that and appreciate your work on behalf of the public. With 
that, thanks to each of the witnesses, and this hearing is 
adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 57848.049
    
    [GRAPHIC] [TIFF OMITTED] 57848.050
    
    [GRAPHIC] [TIFF OMITTED] 57848.051
    

                                 <all>

</pre></body></html>
